 OFFICE OF INSPECTOR GENERAL


semiannual Report to CONGRESS
  OCTOBER 1, 2012 – MARCH 31, 2013




DEDICATION                  RESPONSE   Oversight




                                       U.S. DEPARTMENT
                                       OF HOUSING
                                       AND URBAN
                                       DEVELOPMENT
OUR Mission
   The Office of Inspector General will • Conduct and supervise

 independent audits, fraud reviews, evaluations, and civil and criminal

investigations relating to the programs and operations of the Department;

• Promote economy, efficiency, and effectiveness in the administration

    of U.S. Department of Housing and Urban Development (HUD)

   programs and operations; • Prevent and detect fraud and abuse

 in such programs and operations; • Provide a means for keeping the

 HUD Secretary and Congress fully informed about current problems

 and deficiencies; and • Benchmark best practices and recommend

        corrective actions in HUD’s programs and operations.
Inspector General Montoya, shown with Attorney General Eric Holder
and HUD Secretary Shaun Donovan at a U.S. Department of Justice
(DOJ) Press Conference, October 9, 2012
Source: DOJ
    Our GOALS
      1   Effectiveness: Help the Department address its “major
challenges” by being a relevant and problem-solving advisor to HUD,
stakeholders, and Congress.     2   Timeliness: Deliver relevant products
that allow the Department to act on time-sensitive issues.    3   Quality:
  Provide services and products that can be relied upon to address
vulnerabilities, provide opportunities for improvements, and recognize
positive outcomes.   4   Impact: Deliver services and products that can
 be used by recipients to make informed decisions, take appropriate
 actions, and improve programs.        5   Innovation: Develop new and
 better ways of conducting business to enhance our organizational
    performance and to support a diverse and skilled workforce.
Profile of Performance
 Audit profile of performance for the period October 1, 2012, to March 31, 2013
 Results                                                                                            This reporting period

 Recommendations that funds be put to better use                                                         $739,511,263

 Recommended questioned costs                                                                            $770,413,427

 Collections from audits                                                                                $1,021,082,054

 Administrative sanctions                                                                                     1

 Subpoenas                                                                                                   111



 Investigation profile of performance for the period October 1, 2012, to March 31, 2013
 Results                                                                                            This reporting period

 Recoveries and receivables                                                                              $74,985,486

 Arrests                                                                                                     196

 Indictments and informations                                                                                225

 Convictions, pleas, and pretrial diversions                                                                 270

 Civil actions1                                                                                              21

 Total administrative sanctions                                                                              112

    Suspensions                                                                                              51

    Debarments                                                                                               50

    Removal from program participation                                                                        11

 Systemic implication reports                                                                                 7

 Personnel actions2                                                                                          16

 Search warrants                                                                                             33

 Subpoenas                                                                                                   479



 Hotline profile of performance for the period October 1, 2012, to March 31, 2013
 Results                                                                                            This reporting period

 Funds put to better use                                                                                  $1,667,699

 Recoveries and receivables                                                                                $173,405

 Hotline complaints processed related to OIG mission                                                         700




1 Civil actions no longer include contact letters.
2 P
   ersonnel actions include reprimands, suspensions, demotions, or termination of the employees
  of Federal, State, or local governments or of Federal contractors and grantees as the result of
  Office of Inspector General (OIG) activities.
During this reporting period,


we had NEARLY $740 million in funds


put to better use, questioned costs


of $770 million, and more than


$1 billion in colleCtions resulting


from 49 audit reports and nearly


$75 million in recoveries due to our


investigative efforts.
a m e s s a g e f ro m I nspector G eneral D avid A . M onto y a




It is with a sense of sincere gratitude and commendation
to our staff that I present to you the U.S. Department of Housing and Urban Development
(HUD), Office of Inspector General’s (OIG) Semiannual Report to Congress for the first half of fiscal year

2013. This report is the culmination of efforts by a dedicated group of auditors, investigators, attorneys, and

various support staff. I am grateful to be surrounded by a remarkable and talented staff.


                                        During this reporting       If HUD makes needed changes, it should improve the
                                        period, we had nearly       effectiveness and efficiency of the Hurricane Disaster
                                        $740 million in funds put   Recovery program.
                                        to better use, questioned       In a related disaster recovery matter, our evaluation of the
                                        costs of $770 million,      State of Louisiana’s Road Home Elevation Incentive program
                                        and more than $1 billion    questioned the disbursement of nearly $700 million. More
                                        in collections resulting    than 24,000 homeowners were given up to $30,000 to elevate
                                        from 49 audit reports       their homes, but the State was unable to document that the
                                        and nearly $75 million      funds were used as required. We found instead that the funds
                                        in recoveries due to our    were used for shelter, food, and other living expenses. We
                                        investigative efforts. We   recommended that the State complete its documentation
                                        also had 225 indictments    process and recover funds when work was not done.
and informations, 270 convictions, and 196 arrests during this          A key area of investigative activity has been mortgage
reporting period. This extraordinary work has contributed to        fraud. In one case, nine individuals at a large bank pled guilty
better accountability of HUD programs and operations.               to conspiracy to submit false statements in loan applications
     A few of our high-profile audits this period were targeted     to the Federal Housing Administration (FHA). The case
to high-risk areas with particular focus on HUD’s Hurricane         involved approximately 1,900 FHA loans with a potential loss
Disaster Recovery program for hurricanes that hit the Gulf          to FHA of $30 million. The defendants’ sentences included
Coast States from August 2005 through September 2008. Our           Federal prison terms that ranged from 30 days to 10 years. 
summary report of our prior audits found that the States used           Since its creation in 1974, OIG has been a leader in the
disaster funding primarily to assist communities in repairing       effort to fight waste, fraud, and abuse in nearly 300 HUD
and rebuilding housing, compensating homeowners, repairing          programs, along with its oversight of American Recovery and
infrastructure damage, and providing economic development.          Reinvestment Act stimulus funding, disaster recovery, and
The report provides many lessons learned, some of which HUD         the recent financial crisis. I would once again like to express
has already implemented. However, the States could improve          my appreciation to Congress and the Department for their
on reporting their activities, as some of their activities had no   sustained commitment to addressing the top challenges
or nominal progress reported because they did not generally         facing HUD’s programs. I also extend my sincere appreciation
report their progress until the projects were complete. In          to the staff of OIG for its commitment to our mission and
addition, while the States generally met the various statutory      conducting its work in the most outstanding fashion.
mandates, several States had not met two mandates.
     Although the States had made progress, based on
our prior audits and a review of the program’s data, there
have been some lessons to be learned regarding deadlines,
program guidance, information system technology                         David A. Montoya | Inspector General
acquisitions, procurements, and homeowners’ insurance. 
Trending
Superstorm Sandy                          were significant in light of the $16       Civil Fraud
The destruction and aftermath of          billion in HUD disaster funding.           Civil fraud investigations continue to be
Superstorm Sandy will be a focus and          The disaster assessment report         an area of emphasis. In 2010, HUD OIG
challenge for the U.S. Department of      recommended improvements in                created a separate and distinct team of
Housing and Urban Development,            administration, procurement, and           employees who focused solely on civil
Office of Inspector General (HUD          contracting by the disaster grantees. In   fraud. Recently, HUD OIG enhanced
OIG).  Congress provided $16 billion in   addition, the report recommended that      the group by dedicating investigative
supplemental appropriations through       grantees complete activities in a timely   expertise and renaming it the Joint
HUD’s Community Development               manner and that HUD closely monitor        Civil Fraud Division. This new division
Block Grant (CDBG) Disaster Recovery      grantees to ensure that they meet          is tasked with investigating fraud
program to help communities recover       statutory requirements.  The Louisiana     nationwide and pursuing civil actions
from the superstorm.  To address the      Road Home report, which concluded          and administrative sanctions against
enormous task of enforcement and          that the State did not have evidence       entities and individuals that commit
oversight, we have designated Regions     that homeowners who received funds         fraud against HUD.
2 and 3 to perform the bulk of Sandy      to elevate their homes completed the           The Joint Civil Fraud Division
oversight.  Our audit, investigative,     projects, determined that the cost to      pursues civil actions and administrative
and inspections staff will provide        the government was $698.5 million.         sanctions under a variety of statutes,
a continuing and comprehensive                HUD OIG has been working               including the False Claims Act; Program
review of the expenditure of funds and    jointly with HUD’s disaster staff to       Fraud Civil Remedies Act; and Financial
administration.                           ensure that the lessons learned from       Institutions Reform, Recovery, and
    Two key audits issued during          previous disasters will be considered      Enforcement Act. The division also
this reporting period on the heels of     in the approval of the grantees’ work      pursues debarments, suspensions,
Sandy were the review of the overall      plans and HUD’s disaster guidance.         and limited denials of participation.
assessment of HUD’s Disaster Recovery     HUD disaster staff, prior disaster         Besides the more traditional use of civil
program in the Gulf Coast States          grantees, and OIG staff participated in    and administrative tools, the division
and an Inspections and Evaluations        a joint training session.  The training    is pursuing referrals to State boards
Division follow-up report on the State    focused on the changes in program          of licensing agencies for entities and
of Louisiana’s Road Home Elevation        requirements resulting from lessons        individuals that commit civil fraud to
Incentive Program.  These two reports     learned during prior disasters.            the detriment of HUD (for example,
independent public accountants, notaries,
attorneys, etc.).
                                                      Table of Contents
    The division works closely with the
                                                      Chapter 1 – Single-Family Programs....................................8
U.S. Department of Justice, U.S. Attorney’s
                                                      Audit......................................................................................................8
Offices, and HUD’s Office of General Counsel
                                                      Investigation......................................................................................10
to investigate and convey civil cases. The
partnerships forged between the division              Chapter 2 – Public and Indian Housing Programs............13

and prosecutors have yielded unprecedented            Audit.................................................................................................... 13

outcomes. In the past year, joint efforts have        Investigation...................................................................................... 14

resulted in nearly $1.3 billion in settlements and    Chapter 3 – Multifamily Housing Programs......................15
court-ordered judgments. Mortgage-related             Audit.................................................................................................... 15
fraud will continue to be an important area of        Investigation...................................................................................... 17
investigation in the future, as the division is
                                                      Chapter 4 – Community Planning
currently conducting a number of mortgage
                                                      and Development Programs................................................18
fraud-related cases. Additionally, the Joint Civil
                                                      Audit.................................................................................................... 18
Fraud Division is expanding its focus to conduct
                                                      Investigation......................................................................................22
more investigative work in HUD’s other main
program areas of community planning and               Chapter 5 – American Recovery and

development, public housing, and multifamily          Reinvestment Act of 2009....................................................23
housing with an emphasis on grant fraud.              Audit....................................................................................................23
                                                      Investigation......................................................................................25

                                                      Chapter 6 – Disaster Relief Programs................................26
Joint Initiatives                                     Audit....................................................................................................26
As part of its strategic plan this year, OIG          Investigation......................................................................................29
identified nine initiatives that are being worked
                                                      Chapter 7 – Other Significant Audits and
jointly between our Offices of Audit and
                                                      Investigations and the OIG Hotline....................................30
Investigation. These initiatives were selected as
                                                      Audit....................................................................................................30
they are some of the most intractable problems
                                                      Investigation......................................................................................33
that OIG repeatedly finds in its work. Therefore,
                                                      OIG Hotline.......................................................................................34
the joint working groups are looking for root
causes. This initiative is also focused on bringing   Chapter 8 – Legislation, Regulation,
together diverse skill sets from the Offices of       and Other Directives.............................................................36
Audit and Investigation, in hopes of developing       Notices and Policy Issuances........................................................36
new approaches to these longstanding issues.          Chapter 9 – Audit Resolution..............................................38
The initiatives are                                   Audit Reports Issued Before the Start
    • FHA appraisals and high-risk appraisers         of the Period With No Management Decision
    • S
       trengthening HUD’s real estate-owned          as of March 31, 2013........................................................................38
       program                                        Significantly Revised Management Decisions........................... 40
    • C
       ommunity planning and development             Significant Management Decisions
       program oversight and grantee                  With Which OIG Disagrees.............................................................44
       performance                                    Federal Financial Management
    • R
       eview of lender oversight                     Improvement Act of 1996..............................................................45
    • O
       peration Home Rules – Englewood Joint
                                                      Appendix 1 – Peer Review Reporting.................................47
       Initiative
    • C
       ity of Detroit MI’s Neighborhood              Appendix 2 – Audit Reports Issued.................................... 48
       Stabilization Program-funded                   Appendix 3 – Tables..............................................................53
       demolition activities
                                                      OIG Telephone Directory.....................................................73
    • C
       ommunity planning and development
       subrecipients and developers                   Acronyms List........................................................................76
    • Multifamily housing program                     Reporting Requirements......................................................77
    • Preforeclosure sales
semiannual report to congress




         ONE        Single-Family Programs




       The Federal Housing Administration (FHA) single-family programs provide mortgage insurance to mortgage
       lenders that, in turn, provide financing to enable individuals and families to purchase, rehabilitate, or construct
       homes. Some of the highlights from this semiannual period are noted below.


       Audit


       Strategic Initiative 1: Contribute to the reduction of fraud in
       single-family insurance programs


         KEY PROGRAM RESULTS                      8 audits

         QUESTIONED COSTS                         $3 million

         FUNDS PUT TO BETTER USE                  $1.4 million



       Review of HUD’s Oversight of Its Home Equity Conversion
       Mortgage Program
       The U.S. Department of Housing and Urban Development, Office of Inspector General (HUD OIG), audited
       HUD’s oversight of its Home Equity Conversion Mortgage (HECM) Program, also known as a reverse
       mortgage, to determine whether HUD controls prevented borrowers from renting their properties to Section
       8 Housing Choice Voucher program participants. This objective serves as a way to determine whether
       borrowers have falsely certified that the property associated with the HECM loan is their primary residence.
           HUD policies did not always ensure that borrowers complied with Program residency requirements. Of
       174 borrowers reviewed, 37 were not living in the property associated with the loan and were renting the
       property to Section 8 voucher participants contrary to residency requirements. As a result, 37 insured loans
       were ineligible and should be declared in default and due and payable to reduce the potential risk of loss of
       nearly $525,000 to HUD’s insurance fund. 	
           OIG recommended that HUD (1) direct the applicable lenders to verify and provide documentation of
       the borrowers’ compliance with the Program residency requirement or for each noncompliant borrower,
       declare the loan due and payable and (2) implement control policies or procedures to at least annually match
       borrowers’ information with Section 8 voucher participant data to prevent or mitigate instances of borrowers
       renting out their properties to Section 8 voucher participants. (Audit Report: 2013-PH-0002)




8
                                                                                         CHAPTER ONE Single-Family Programs




Review of Loans Underwritten by Standard Pacific Mortgage
HUD OIG conducted a limited review of FHA loans underwritten by Standard Pacific Mortgage, Inc., in Irvine,
CA, to determine the extent to which Standard Pacific Mortgage failed to prevent the recording of prohibited
restrictive covenants or potential liens in connection with FHA-insured loans closed between January 1, 2008,
and December 31, 2011.
    Standard Pacific Mortgage did not follow HUD requirements regarding free assumability and liens when it
underwrote loans that had executed and recorded agreements between Standard Pacific Homes and the FHA
borrower, containing prohibited restrictive covenants and liens in connection with FHA-insured properties.
As a result, 90 FHA-insured loans were found with a corresponding prohibited restrictive covenant and lien
recorded with the applicable county recording office; consequently, Standard Pacific Mortgage placed the FHA
fund at unnecessary risk for potential losses.
    OIG recommended that HUD determine legal sufficiency and if legally sufficient, pursue civil remedies,
civil money penalties, or other administrative action against Standard Pacific Mortgage, its principals, or both
for incorrectly certifying to the integrity of the data or that due diligence was exercised during the origination
of FHA-insured mortgages. OIG also recommended that HUD require Standard Pacific Mortgage to (1)
reimburse the FHA fund for more than $1.5 million in actual losses resulting from the amount of claims and
associated expenses paid on 15 loans that contained prohibited restrictive covenants and liens, (2) support
the eligibility of nearly $1.4 million in claims paid or execute an indemnification agreement requiring any
unsupported amounts to be repaid for claims paid on 13 loans for which HUD has paid claims but not sold
the properties, (3) analyze all FHA loans originated or underwritten beginning January 1, 2008, and nullify
all active restrictive covenants or execute indemnification agreements that prohibit it from submitting
claims on those loans, and (4) follow 24 CFR (Code of Federal Regulations) 203.32 and 203.41 by excluding
restrictive language and prohibited liens for all new FHA-insured loan originations and ensure that policies
and procedures reflect FHA requirements. The five active loans with prohibited restrictive covenants carry
a potential loss of nearly $545,000 that could be put to better use. (Audit Memorandum: 2013-LA-1801). In
addition to the review sited above, HUD OIG is in the process of conducting reviews of restrictive covenants at
three additional lenders.



Review of Real Estate-Owned Management and Marketing III Program
HUD OIG audited Ofori & Associates, PC, in Hartford, CT, regarding its HUD real estate-owned (REO)
Management and Marketing III program, to determine whether Ofori complied with case processing
requirements and timeframes to obtain the highest net return for HUD’s REO inventory and minimize
holding time.
    Ofori officials did not always comply with case processing requirements and timeframes for the
disposition of REO properties assigned to them. Specifically, they did not always perform all case processing
requirements or perform case processing requirements in a timely manner to minimize holding time and
costs to HUD. They also did not adequately document information in case files and the P260 computer
system. As a result, HUD did not have assurance that it always received the highest net return on its REO
inventory and that holding time and costs were minimized.
    OIG recommended that HUD (1) require Ofori officials to establish sufficient internal controls to ensure
that contract and marketing plan requirements are performed adequately and in a timely manner and (2)
provide guidance to Ofori officials regarding adequately documenting P260 and the property case files and
ensure that Ofori develops adequate controls to ensure that all required documentation is included in the
property case files and uploaded to P260. (Audit Report: 2013-BO-1001)




                                                                                                                         9
semiannual report to congress




       Investigation

         Program results

         ADMINISTRATIVE-CIVIL ACTIONS                             61

         CONVICTIONS-PLEAS-PRETRIAL DIVERSIONS                    81

         FINANCIAL RECOVERIES                                     $39,445,414




       Nine Bank Officials Sentenced in $30 Million Loan Fraud
       A former senior vice president and loan officer, a former senior vice president of residential lending, two
       former underwriters, a former loan officer, three former loan processors, and an administrative assistant at
       a large bank pled guilty to conspiracy to submit false statements in loan applications and submitting false
       statements in loan applications to FHA. The defendants were involved in originating and approving FHA-
       insured loans and conventional loans that contained fraudulent information. The defendants’ sentences
       included prison terms that ranged from 30 days to 10 years in Federal Prison to 30 days in Federal prison.
       The case involved approximately 1,900 FHA loans with a potential loss to FHA of $30 million. This case was
       worked jointly with the Federal Bureau of Investigation (FBI), Internal Revenue Service, and Postal Inspection
       Service. (Tacoma, WA)



       Settlement Agent Suspended by HUD for Role in Mortgage Fraud Scheme
       A former settlement agent and owner of a title company was suspended from participation in procurement
       and nonprocurement transactions as a participant or principal with HUD and throughout the Executive
       Branch of the Federal Government. The defendant pled guilty to money laundering and illegally distributing
       loan funds as an escrow agent. Additionally, the defendant was sentenced in October 2012 to 3 years Federal
       probation and ordered to pay $42,404 in restitution and a $20,000 fine. This case was worked jointly with the
       New Jersey Attorney General’s Office, New Jersey Division of Criminal Justice, and Federal Housing Finance
       Agency OIG. (Morris County, NJ)



       Real Estate Paralegal Debarred by HUD for Role in Mortgage Fraud
       A former real estate paralegal who owned and operated a company to assist with real estate closings was
       debarred from procurement and nonprocurement transactions with HUD and throughout the Executive
       Branch of the Federal Government for an indefinite period. The defendant had previously pled guilty to and
       was sentenced for conspiracy to commit mail and wire fraud stemming from her participation in a mortgage
       fraud scheme in which materially false closing documents were used for obtaining both conventional and
       FHA-insured mortgages. The defendant was sentenced to 33 months in Federal prison, followed by 18 months
       supervised released, and held jointly responsible with coconspirators for restitution of $6.3 million. This case
       was worked jointly with the FBI. (New London, CT)




10
                                                                                        CHAPTER ONE Single-Family Programs




Elderly Target of Home Equity Conversion Mortgage Fraud
A South Carolina woman pled guilty to exploitation of a vulnerable adult and was sentenced to 60 months
supervised release and ordered to pay restitution to the elderly victim. The defendant befriended the
victim and used this relationship to aid the vulnerable adult in obtaining a HECM loan. The defendant
later used the loan proceeds for her own personal gain without the homeowner’s knowledge. This case was
worked jointly with the South Carolina Law Enforcement Center. (Columbia, SC)



Real Estate Developer Sentenced in Scheme Targeting Unsuspecting Buyers
A real estate developer was sentenced to 36 months in Federal prison, followed by 5 years supervised
release, and ordered to pay more than $1.9 million in restitution to HUD. The defendant owned and
operated multiple companies, which purchased, renovated, and sold residential real estate properties to
unsophisticated and unqualified borrowers. In furtherance of this scheme, the defendant and others assisted
unqualified borrowers by submitting false loan applications with inflated assets and income, false HUD-1
settlement statements, inflated appraisals by unlicensed appraisers, false leases, and fraudulent verification of
employment and verification of residence forms for at least 26 HUD-insured mortgages. (Newark, NJ)



Appraiser Accepts Responsibility for Crimes
A former licensed real estate appraiser pled guilty to false statements to a federally insured credit union for
overvaluing properties. The defendant knowingly misrepresented residential appraisal values to FHA to
generate refinances. These appraisals were used to lure homeowners to refinance against a home value that
did not exist. Several of these properties were later foreclosed upon, causing a loss to FHA. This case was
worked jointly with the FBI. (Davenport, IA)



Fraudsters Sentenced in Swindle of Distressed Homeowners
An unlicensed loan officer and a former loan modification broker were collectively sentenced to 37 months
incarceration, followed by 8 years supervised probation, and ordered to pay more than $1 million in
restitution. The defendants’ sentences were a result of guilty pleas from criminal charges involving wire fraud,
mail fraud, and theft of government property. These defendants met with more than 100 homeowners and
indicated that for an upfront fee, they could reduce the principal balance of their mortgage loans through two
Federal programs: HUD’s HOPE for Homeowners (H4H) program and the U.S. Department of the Treasury’s
Troubled Asset Relief Program. From May 2008 to January 2010, the defendants operated a foreclosure
rescue scheme targeting distressed homeowners who were seeking H4H loans. However, these upfront fees
were not used for their intended purpose, and as a result, many of these homeowners lost their properties to
foreclosure. These cases were worked jointly with the Social Security Administration OIG, Office of the Special
Inspector General for the Troubled Asset Relief Program (SIGTARP), and the United States Postal Inspection
Service. (Las Vegas, NV)




                                                                                                                       11
semiannual report to congress




       Industry Professional Sentenced in Mortgage Relief Scam
       A loan modification broker was sentenced to 5 years Federal probation and ordered to pay restitution to more
       than 200 distressed homeowners as a result of an earlier guilty plea to mail fraud. The defendant operated
       a foreclosure rescue scheme targeting distressed homeowners, including FHA borrowers, who were seeking
       principal reduction assistance. As part of the scheme, upfront fees totaling $762,143 were collected but not
       used to assist homeowners in obtaining assistance. This investigation was worked jointly with SIGTARP and
       the United States Postal Inspection Service. (Las Vegas, NV)



       Former Loan Officer Pleads Guilty in Mortgage Fraud
       A former loan officer pled guilty to one count of conspiracy to commit wire fraud for his role in a mortgage
       fraud scheme. As a loan officer, he conspired with other loan officers, loan processors, and underwriters
       to submit fraudulent employment information on at least 44 unqualified borrowers to make them appear
       qualified for FHA-insured mortgages. Many of those mortgages went into default after the borrowers failed to
       pay the mortgages, resulting in a loss of more than $5.7 million to HUD. (Miami, FL)



       Mortgage Fraud Fugitive Brought to Justice
       A former real estate professional, who had become a fugitive after fleeing the country for 9 years pursuant to
       a 2003 indictment for Federal violations pertaining to conspiracy and filing false statements with HUD, was
       sentenced to 6 months incarceration, followed by 1 year supervised probation, and ordered to pay $408,156 in
       restitution to HUD. In 2003, the defendant conspired to recruit “straw buyers” and nonqualifying buyers and
       purchase fradulent documents for the purpose of obtaining FHA-insured loans. The fradulent actions caused
       the funding of at least $829,824 in FHA-insured mortgages and resulted in the foreclosure of five FHA-insured
       properties. After his indictment, the subject fled and did not appear for his preliminry hearing. The subject
       was arrested on December 13, 2012, at the Immigration and Customs Office in Riverside, CA, after applying for
       a travel visa. (Los Angeles, CA)




12
                                                                                   CHAPTER two Public and Indian Housing Programs




  TWO         Public and Indian Housing Programs




The U.S. Department of Housing and Urban Development (HUD) provides grants and subsidies to 4,100 public
housing agencies (PHA) nationwide. Many PHAs administer both public housing and Section 8 programs. HUD
also provides assistance directly to PHAs’ resident organizations to encourage increased resident management
entities and resident skills programs. Programs administered by PHAs are designed to enable low-income
families, the elderly, and persons with disabilities to obtain and reside in housing that is safe, decent, sanitary,
and in good repair.


Audit


Strategic Initiative 2: Contribute to the reduction of erroneous
payments in rental assistance


  Key program results                          7 audits3

  Questioned costs                             $147,000

  Funds put to better use                      $152,000



Section 8 Housing Choice Voucher Program
HUD’s Office of Inspector General (OIG) completed a corrective action verification of a recommendation
made to HUD pertaining to OIG’s review of the City of Hawthorne, CA’s Section 8 program, Audit Report
2011-LA-1008, issued March 28, 2011. The purpose of the corrective action verification was to determine
whether HUD officials appropriately closed audit recommendation 1A. 
     HUD officials inappropriately closed the recommendation by using nearly $769,0004 in Federal funds as
an offset against questioned Section 8 costs. OIG recommended that HUD reopen the recommendation in its
Audit Resolution and Corrective Action Tracking System. (Audit Memorandum: 2013-LA-0802)



3 The total public and Indian housing audits, questioned costs, and funds put to better use amounts include American
  Recovery and Reinvestment Act of 2009 (four audits) type audits conducted in the public and Indian housing area. The
  writeups for these audits may be found in chapter 5 of this semiannual report.
4 This amount is not included in total questioned costs above because it was included in Semiannual Report to Congress 65,
  which contained the original audit (2011-LA-1008).




                                                                                                                              13
semiannual report to congress




       Investigation

        Program results

         ADMINISTRATIVE-CIVIL ACTIONS                            46

         CONVICTIONS-PLEAS-PRETRIAL DIVERSIONS                   157

         FINANCIAL RECOVERIES                                    $8,783,507



       Former Tenant Posing as a Landlord Sentenced in Several Schemes
       A former Cuyahoga Metropolitan Housing Authority tenant and landlord was sentenced to 48 months
       in Federal prison, followed by 5 years Federal probation, and ordered to pay $54,416 in restitution to the
       Authority. In addition, $2.03 million in restitution was ordered to be paid to various banks. The defendant
       previously pled guilty to theft of government funds and bank fraud. The defendant failed to disclose
       ownership interest in the unit she was residing in as a HUD Section 8 tenant and received $54,416 in rental
       subsidies she was not entitled to receive. Further, the defendant recruited “straw buyers” and ensured
       that they qualified for mortgage financing by providing false information on their loan applications for
       conventional mortgages, which were eventually foreclosed upon, causing a $2.06 million loss to several
       financial institutions. This investigation was worked jointly with the Internal Revenue Service, Criminal
       Investigation Division. (Cleveland, OH)



       Former Housing Authority Employee Sentenced for Embezzlement
       A former Bessemer Housing Authority employee was sentenced to 30 months in Federal prison, followed by
       36 months Federal probation, and ordered to pay the Authority and other entities defrauded in the scheme
       $198,700 in restitution. The defendant previously pled guilty to embezzlement and identity theft. The
       defendant embezzled money and committed identity theft by illegally writing 28 checks from the Authority’s
       operating account to herself or others without their knowledge. HUD OIG conducted this investigation.
       (Birmingham, AL)



       Former Housing Authority Finance Director Caught in Scam
       The former finance director of the Coeur d’ Alene Tribal Housing Authority was sentenced to 5 years Federal
       probation and ordered to pay $28,275 in restitution. The defendant issued unauthorized paychecks and
       payroll advances and authorized bank transfers from the Authority’s account to herself for unapproved
       personal expenses. This investigation was worked jointly with the Federal Bureau of Investigation. (Coeur d’
       Alene, ID)




14
                                                                                CHAPTER THREE Multifamily Housing Programs




  THREE          Multifamily Housing Programs




In addition to multifamily housing developments with U.S. Department of Housing and Urban Development
(HUD)-insured or HUD-held mortgages, the Department owns multifamily projects acquired through
foreclosure, subsidizes rents for low-income households, finances and insures the construction or rehabilitation
of rental housing, and provides support services for the elderly and handicapped. Some of the highlights from
this semiannual period are shown below.


Audit


Strategic Initiative 2: Contribute to the reduction of erroneous
payments in rental assistance


  Key program results                      4 audits

  Questioned costs                         $7.2 million

  Funds put to better use                  -0-



Review of HUD’s Oversight of the Assisted Living Conversion Program
HUD’s Office of Inspector General (OIG) audited HUD’s oversight of the Assisted Living Conversion Program
to determine whether HUD had adequate oversight of the program and found that HUD did not always
ensure that grant applications contained eligible work items or construction activities. Specifically, 9 of the
19 grant applications reviewed contained items or construction activities that were not directly related to the
conversion of units and common space for assisted living. Further, HUD did not ensure that the performance
period for six grants did not exceed 18 months.
    HUD also did not always ensure that grantees submitted required biannual progress reports before it
released payments and ensure that it conducted bimonthly onsite inspections of the construction activities
as required.




                                                                                                                       15
semiannual report to congress




           As a result, HUD lacked assurance that (1) grant funds were used solely for eligible activities as prescribed
       by the program requirements and guidance, (2) projects would be completed in a timely manner and without
       unnecessary waste to meet the special needs of the elderly and disabled persons, and (3) funds were properly
       used to meet the program objectives. Further, HUD did not effectively protect its interest.
           OIG recommended that HUD (1) identify the ineligible items and seek reimbursement from grantees
       from non-Federal funds for completed projects or adjust grant amounts accordingly for active projects; (2)
       determine the eligibility of items or activities; and (3) implement adequate policies, procedures, and controls
       to address the deficiencies cited. (Audit Report: 2013-CH-0001)



       Review of Multifamily Management Agents
       HUD OIG audited Bay Vista Methodist Heights, San Diego, CA, to determine the full extent of the misuse of
       HUD’s trust funds.
           Bay Vista violated its trust fund agreement with HUD. Specifically, it used trust funds without HUD’s
       approval for ineligible operating expenses. In addition, Bay Vista could not support expenditures on draw
       requests that were approved by HUD.
           OIG recommended that HUD require Bay Vista to (1) repay more than $5 million to the trust fund from
       non-Federal funds; (2) support an additional $1 million or repay the trust; (3) replace the management agent
       with a non-identity-of-interest agent; and (4) implement policies, procedures, and controls to restrict the
       use of trust funds to only allowable expenses and ensure that the trust funds are not commingled with other
       funds. (Audit Report: 2013-LA-1003)



       HUD OIG audited McClain Barr and Associates (management agent) in Summerfield, NC, to determine
       whether HUD’s concerns regarding the management of HUD-assisted properties had merit and whether
       the frontline costs that the management agent charged its HUD properties complied with its regulatory and
       management agreements or other HUD requirements. 	
           The management agent did not follow HUD’s requirements for charging its properties frontline expenses.
       It failed to maintain documentation supporting the eligibility of its charges, made charges based on budgeted
       amounts, charged management agent staff costs to properties, and charged some ineligible items. As a result,
       the agent may have deprived the properties of more than $872,000, which could have been used for project
       operations, improvements, or other allowable expenditures.
           OIG recommended that HUD require the management agent to support that it properly charged its HUD
       properties nearly $804,000 for frontline costs and repay more than $68,000 in ineligible frontline charges. OIG
       also recommended that HUD review the eligibility of the remaining 2012 frontline costs that occurred after
       the audit period and require the management agent to begin charging its HUD properties only actual eligible
       frontline expenses as outlined in the requirements. (Audit Report: 2013-AT-1002)




16
                                                                                CHAPTER THREE Multifamily Housing Programs




Investigation

 Program results

  ADMINISTRATIVE-CIVIL ACTIONS                             23

  CONVICTIONS-PLEAS-PRETRIAL DIVERSIONS                    18

  FINANCIAL RECOVERIES                                     $25,321,171




Owner of FHA-Insured Nursing Home Suspended
The owner of an Federal Housing Administrarion (FHA)-insured nursing home was suspended from
participation in procurement and nonprocurement transactions as a participant or principal with HUD and
throughout the Executive Branch of the Federal government. The suspension was based on a Federal conviction
of one count of bankruptcy fraud. The defendant embezzled more than $800,000 from the nursing home, which
was in bankruptcy proceedings. The defendant was previously sentenced to 18 months Federal incarceration,
followed by 2 years supervised release, and ordered to pay $495,212 in restitution. (Hartford, CT)



Former Section 8 Tenant Sentenced for Identity Theft and Conspiracy
A former tenant of a HUD-insured and subsidized multifamily project was sentenced to 1 month and 1 day
Federal incarceration, followed by 3 years supervised release, and ordered to pay $92,979 in restitution to
HUD. This sentence was a result of an earlier guilty plea to conspiracy and aggravated identity theft. The
defendant used the identity of her sister to obtain and maintain subsidized housing and received Section 8
rent and utility payments to which she was not entitled. This investigation was worked jointly with the United
States Secret Service. (Akron, OH)



Multifamily Property Manager Sentenced for Equity Skimming
The chief operating officer of a residential property management company that managed nine multifamily
residential properties was sentenced to 6 months home confinement, followed by 3 years probation, and
ordered to pay $25,000 in restitution to Orchard Court Housing Authority and a $200 special assessment. The
sentence resulted from an earlier Federal conviction on two counts of equity skimming. This case was worked
jointly with the U.S. Department of Agriculture OIG and the Federal Bureau of Investigation. (Portland, ME)




                                                                                                                       17
semiannual report to congress




        FOUR          Communit y Pl anning and
                      Development Programs


       The Office of Community Planning and Development (CPD) seeks to develop viable communities by promoting
       integrated approaches that provide decent housing, suitable living environments, and expanded economic
       opportunities for low- and moderate-income persons. The primary means toward this end is the development
       of partnerships among all levels of government and the private sector. Some of the highlights from this
       semiannual period are shown below.


       Audit


       Strategic Initiative 3: Contribute to the strengthening of communities


         Key program results                        16 audits5

         Questioned costs                           $757.7 million

         Funds put to better use                    $4 million



       The U.S. Department of Housing and Urban Development, Office of Inspector General (HUD OIG), audited
       the Community Development Block Grant (CDBG) program, the HOME Investment Partnerships Program
       (HOME), and Housing Opportunities for Persons with AIDS (HOPWA). While OIG’s objectives varied by
       auditee, the majority of the reviews were to determine whether the grant funds were administered for eligible
       activities and that the auditee met program objectives.



       Community Development Block Grant Programs
       HUD OIG audited Luzerne County, PA’s $6 million loan of CDBG funds to CityVest, which was expected to
       be used to revitalize the historic Hotel Sterling and surrounding properties, to determine whether the County
       properly evaluated and underwrote its loan to CityVest and the project met its designated national objective.
            The County did not properly evaluate, underwrite, and monitor its loan to CityVest. After nearly 10 years



       5 The total CPD audits, questioned costs, and funds put to better use amounts include American Recovery and Reinvestment
         Act of 2009 (three audits) and disaster recovery (three audits) type audits conducted in the CPD area. The writeups for these
         audits may be found in chapters 5 and 6 of this semiannual report.




18
                                                                CHAPTER FOUR Community Planning and Development Programs




and $6 million expended, the project did not meet its designated national objective of job creation. The
County and the City of Wilkes-Barre, PA, planned to demolish the hotel and clear the site, and no permanent
jobs were created. Therefore, the $6 million in CDBG funds expended for this project was an ineligible
expenditure. CityVest also used HUD funds inappropriately to make an unreasonable and unnecessary
expenditure of $303,000 to satisfy two municipal liens against a property that it had purchased when it was the
responsibility of the former property owner to satisfy the liens.
    OIG recommended that HUD require the County to (1) reimburse its business development loan program
$6 million from non-Federal funds for the ineligible expenditures related to the Hotel Sterling project and (2)
develop and implement comprehensive procedures for evaluating, underwriting, and monitoring proposed
projects. (Audit Report: 2013-PH-1001)



HUD OIG audited the Municipality of Arecibo, PR’s CDBG program to determine whether the Municipality
complied with HUD regulations, procedures, and instructions related to the administration of its program.
    The Municipality’s financial management system did not properly identify the source and application
of more than $1.8 million in CDBG funds and did not support the eligibility of more than $400,000. Further,
the Municipality charged the CDBG program more than $1.6 million as activity costs associated with wages
without supporting the basis and reasonableness of funds charged and did not support more than $1.2 million
spent in its housing rehabilitation and road reconstruction activities or demonstrate compliance with the
CDBG national objective. In addition, although the Municipality generally complied with requirements for
planning, soliciting, and awarding contracts and purchase orders, it failed to perform a required cost analysis
in one contract and did not always maintain adequate documentation of its procurement history; therefore,
the Municipality did not support the reasonableness of more than $124,000 disbursed in an awarded
construction contract. 
    OIG recommended that HUD determine the eligibility of more than $4.6 million disbursed for
unsupported CDBG program costs and require the Municipality to (1) repay more than $500,000 in ineligible
expenditures, (2) develop a financial management system in accordance with HUD requirements and provide
related training to its staff, (3) charge only eligible program delivery costs to the CDBG program, and (4)
improve its housing rehabilitation program to ensure that CDBG funds are used in accordance with HUD
regulations. (Audit Report: 2013-AT-1003)



Home Investment Partnerships Program
HUD OIG audited the HOME program of the Idaho Housing and Finance Association in Boise, ID, to
determine whether Idaho Housing complied with HOME match fund and compliance monitoring
requirements.
    Idaho Housing did not always comply with HOME match and compliance monitoring requirements. 
Specifically, it did not (1) always comply with requirements for providing match funds for its HOME projects
and (2) adequately monitor the compliance of its HOME projects.
    OIG recommended that HUD require Idaho Housing to provide eligible matching contributions, support,
or both for more than $4.6 million in ineligible and unsupported matching contributions or repay HOME
grant funds received of up to $18.5 million for any matching contributions it cannot support and separately
track its affordable housing bond matching contributions carried forward. OIG recommended that Idaho




                                                                                                                     19
semiannual report to congress




       Housing bring its properties up to HUD standards or reimburse its HOME trust fund from non-Federal funds
       up to $2.2 million for any properties that remain substandard. (Audit Report: 2013-SE-1001)



       HUD OIG audited the Municipality of Ponce, PR’s HOME program to determine whether the Municipality
       maintained its financial management system in compliance with HUD requirements and met HOME program
       objectives.
           The Municipality’s financial management system (1) did not properly identify the source and application
       of more than $3.5 million in HOME funds, (2) did not support the eligibility of more than $454,000 in program
       charges, and (3) failed to disburse HOME funds within HUD-established timeframes. As a result, HUD
       lacked assurance that funds were adequately accounted for, safeguarded, and used for requested and eligible
       purposes and in accordance with HOME requirements.
           The Municipality disbursed more than $327,000 for an activity that showed signs of slow progress without
       assurance that the activity would generate the intended benefits. As a result, HUD had no assurance that
       funds were used solely for eligible purposes and that HOME-funded activities met program objectives and
       fully provided the intended benefits.
           The Municipality reported to HUD more than $2.5 million in HOME commitments without executing
       a written agreement or identifying the property in accordance with HUD requirements. Further, it failed to
       report more than $11,000 in program income and recaptured funds. As a result, HUD had no assurance that
       the Municipality met HOME program objectives, commitments, and disbursement requirements.
           OIG recommended that HUD (1) determine the eligibility of more than $3.8 million disbursed for
       unsupported HOME program costs and an activity that showed signs of slow progress and (2) deobligate and
       put to better use more than $286,000 in overstated obligations. (Audit Report: 2013-AT-1001)



       HUD OIG reviewed the City of Inglewood, CA’s HOME program to determine whether the City complied with
       HOME rules and requirements for obligations, commitments, expenditures, program income, monitoring,
       and reporting.
           The City did not commit or disburse its HOME funds in accordance with HUD rules and requirements,
       which resulted in its incurring more than $2.6 million in unused HOME funds that should have been used to
       further affordable housing activities.
           OIG recommended that HUD recapture the uncommitted and unexpended HOME funds and require
       the City to (1) develop better planning processes to commit and expend program income and funds and
       (2) establish and implement sufficient internal control policies and procedures to ensure compliance with
       program rules and requirements or consider revoking the City’s status as a participating jurisdiction for
       HOME funds. (Audit Report: 2013-LA-1001)




20
                                                               CHAPTER FOUR Community Planning and Development Programs




HUD OIG reviewed HUD’s HOME program to determine whether HUD’s proposed regulation changes and
controls would mitigate the systemic deficiencies identified in 77 prior OIG audit reports issued between
January 2006 and 2011.
    If properly implemented, HUD’s proposed changes to HOME regulations and controls should mitigate
the systemic deficiencies identified in prior OIG audits with the exception of (1) the program office’s oversight
of grantee monitoring and (2) validating the reliability of HOME data. HUD’s oversight of grantee monitoring
failed to identify systemic monitoring flaws, and HUD did not use onsite monitoring data to assess
monitoring efforts. As a result, HUD could not ensure that monitoring was complete and effective and may
have missed opportunities to identify systemic issues requiring corrective action. Further, although HUD had
improved controls over HOME data in the Integrated Disbursement and Information System (IDIS), it lacked
a complete process for validating the data. Reliable data are critical in overseeing the program, identifying
high-risk grantees to monitor, and responding to public and congressional requests regarding the program.
    OIG recommended that HUD (1) develop and implement procedures to oversee and assess the
effectiveness of field offices’ monitoring efforts and (2) develop and implement a quality control system to
validate the accuracy and reliability of HOME data in IDIS. (Audit Report: 2013-BO-0001)



Housing Opportunities for Persons with AIDS
HUD OIG audited the City of Paterson, NJ’s HOPWA program to determine whether City officials had
implemented adequate controls to ensure that HOPWA funds were obligated and expended in accordance
with HUD regulations for eligible activities.
    City officials did not always administer the City’s HOPWA program in accordance with Federal regulations
and program requirements. Specifically, HOPWA funds were expended for ineligible and unsupported
costs, subgrantee monitoring was inadequate, and waiting list maintenance had weaknesses. Consequently,
HOPWA funds (1) were not disbursed in a timely manner; (2) were expended on ineligible costs; (3) were
expended on unsupported costs; and (4) would be put to better use if adequate financial and management
controls were implemented over tenant recertification, unit inspections, classification and recording of costs,
and subgrantee administration and monitoring.
    OIG recommended that HUD instruct City officials to (1) expend or deobligate nearly $484,000 to make
funds available for other eligible HOPWA activities; (2) reimburse nearly $16,000 disbursed for ineligible
expenses; (3) provide documentation to adequately support expenditures of nearly $358,000; and (4)
strengthen controls over subgrantee monitoring, tenant certification, and compliance with HUD’s housing
quality standards to put more than $480,000 in HOPWA funds to better use. (Audit Report: 2013-NY-1004)




                                                                                                                    21
semiannual report to congress




       Investigation

        Program results

         ADMINISTRATIVE-CIVIL ACTIONS                          23

         CONVICTIONS-PLEAS-PRETRIAL DIVERSIONS                 13

         FINANCIAL RECOVERIES                                  $1,435,394



       Former CDBG Subrecipient Employee Sentenced in “Kickback” Scheme
       A former employee of a CDBG subrecipient who performed lead abatement work was sentenced to 27 months
       in Federal prison, followed by 24 months Federal probation, and fined $3,000. The sentence was from an
       earlier guilty plea to bribery and tampering with a witness. The defendant solicited “kickbacks” for a bid-
       rigging scheme in which he ensured that contractors would receive CDBG lead removal contracts in exchange
       for cash. This case was worked jointly with the Federal Bureau of Investigation (FBI). (Worcester, MA)



       Former HOPWA Case Worker Sentenced in Fraudulent Landlord Scam
       A former caseworker for an entity that received HOPWA funds was sentenced to 5 years Federal probation
       and ordered to pay $27,772 in restitution. The defendant created a scheme in which money was embezzled
       from the HOPWA organization by creating phony tenants in which she was the landlord receiving payment.
       Another scheme required the HOPWA clients to pay a “kickback” for any benefits they received. This
       investigation was worked jointly with the FBI. (Albuquerque, NM)



       CDBG Contractor Sentenced in “Double Billing” Scheme
       A contractor who was hired by a nonprofit organization receiving CDBG funds to remediate homes damaged
       in Hurricane Katrina was sentenced to 24 months in Federal prison, ordered to pay $116,810 in restitution,
       and fined $30,000. The defendant previously pled guilty to theft of government funds. The defendant double
       billed for work already performed and for work not performed on hurricane-damaged properties owned
       by the elderly and low- to moderate-income homeowners. This case was worked jointly with the FBI. (New
       Orleans, LA)




22
                                                              CHAPTER FIVE American Recovery and Reinvestment Act of 2009




  FIVE       American Recovery and
             Reinvestment Act of 2009


The U.S. Department of Housing and Urban Development (HUD) received $13.61 billion in funding under the
American Recovery and Reinvestment Act of 2009 (ARRA) in several housing program areas. Table 1 shows the
HUD program areas receiving funding and the amounts appropriated to each program.


Audit


Table 1: HUD programs receiving ARRA funding

 HUD program office                 Program area                                       Funding amount

                                     Public Housing Capital Fund                          $4,000,000,000
  Office of Public and
  Indian Housing
                                     Native American Housing Block Grant                    $510,000,000

                                     Community Development Block Grant                    $1,000,000,000


                                     Neighborhood Stabilization Program                   $2,000,000,000
  Office of Community
  Planning and Development           HOME Investment Partnerships                         $2,250,000,000
                                     Program-Tax Credit Assistance Program


                                     Homelessness Prevention Fund                         $1,500,000,000

                                     Assisted Housing Stability Grant                     $2,000,000,000
  Office of Multifamily Housing
                                     Green Retrofit Grant                                   $250,000,000

  Office of Healthy Homes            Lead Hazard Reduction
                                                                                            $100,000,000
  and Lead Hazard Control            Demonstration Program

                                                                                         $13,610,000,000




                                                                                                                     23
semiannual report to congress




       Office of Audit Activities
       The Office of Audit’s overall oversight objectives for HUD funding under ARRA are to determine whether


         •	 Funds are awarded and distributed in a prompt, fair, and reasonable manner;
         •	 The recipients and uses of all funds are transparent to the public, and the public benefits of these funds
            are reported clearly, accurately, and in a timely manner;
         •	 Funds are used for authorized purposes, and instances of fraud, waste, error, and abuse are mitigated;
         •	 Projects funded under ARRA avoid unnecessary delays and cost overruns; and
         •	 Program goals are achieved, including specific program outcomes and improved results on broader
            economic indicators.


       In the prior semiannual reporting periods, HUD’s Office of Inspector General (OIG) reviewed HUD’s front-end
       risk assessments, audited HUD’s formula allocation dictated in ARRA programs, assessed the administrative
       capacity of selected grantees to effectively administer ARRA funds, and assessed grantee expenditures and
       HUD’s oversight activities. During this semiannual reporting period, our audits continue to focus on grantee
       expenditures and HUD’s oversight activities.



       Strategic Initiative 3: Contribute to the strengthening of communities


         Key program results                          8 audits6

         Questioned costs                             $10.3 million

         Funds put to better use                      $152,000



       Lessons Learned From the Implementation of the American Recovery
       and Reinvestment Act of 2009
       In response to a request from the Recovery Accountability and Transparency Board, HUD OIG gathered and
       documented information from HUD regarding its lessons learned from the implementation of ARRA. This
       initiative was led by the U.S. Department of Interior OIG. The objective of the initiative was to identify which
       actions, processes, and mechanisms have been beneficial or posed challenges to agencies and their respective
       OIGs in meeting the requirements of ARRA.
            OIG identified new monitoring tools and initiatives that HUD developed to monitor ARRA-funded
       programs as well as obstacles and challenges that HUD encountered. The initiative was informational in
       nature and contained no recommendations. (Audit Memorandum: 2013-IE-0801)




       6 The total ARRA-related audits consist of community planning and development, public and Indian housing, and “other”
         audits. The questioned costs and funds put to better use amounts relate only to ARRA-related costs.




24
                                                                   CHAPTER FIVE American Recovery and Reinvestment Act of 2009




Office of Community Planning and Development
Audits and Reviews

Homelessness Prevention and Rapid Re-Housing Program
HUD OIG audited the City of Baltimore, MD’s Homelessness Prevention and Rapid Re-Housing Program
grant to determine whether the City properly obligated and expended grant funds and monitored activities for
compliance with requirements of ARRA.
    The City did not properly obligate and expend grant funds and generally did not monitor activities for
compliance with ARRA requirements. Specifically, the City authorized reimbursements for program expenses
based on prorated amounts rather than actual expenses, could not support all expenditures, used grant
funds for potentially ineligible activities, and generally did not monitor the activity of its fiduciary agent and
subgrantees. In addition, HUD’s monitoring review disclosed many problems with the City’s administration
of the grant.
    OIG recommended that HUD (1) require the City to provide all of the documentation it collected
supporting its actions to satisfy the key corrective measures prescribed in HUD’s March 16, 2012, monitoring
letter, (2) review the documentation provided by the City to demonstrate that it used $9.5 million in grant
funds only for eligible services for eligible participants, and (3) require the City to reimburse HUD from non-
Federal funds for any amount that it cannot support. (Audit Report: 2013-PH-1002)




Investigation

Three Suspended for Fraud Involving FHA- and ARRA-funded programs
Three individuals were suspended from participation in procurement and nonprocurement transactions with
HUD and throughout the Executive Branch of the Federal Government. HUD has proposed the debarment
of the three individuals for a period of 3 years. The defendants used “straw buyers” to fraudulently flip
properties. From 2007 through 2009, these individuals provided false information on loan applications to
obtain 11 mortgages, to include Federal Housing Administration (FHA)-insured mortgages, totaling more
than $2.2 million. In addition, they falsely claimed the ARRA-funded First Time Homebuyer Credit. This
investigation was worked with the Internal Revenue Service, Criminal Investigation Division, and the Federal
Bureau of Investigation. (Boston, MA)




                                                                                                                          25
semiannual report to congress




          SIX        Disaster Relief Programs




       In response to disasters, Congress may appropriate additional funding as Disaster Recovery grants to rebuild the
       affected areas and provide crucial seed money to start the recovery process. Over the past several years, disaster
       funding for the U.S. Department of Housing and Urban Development (HUD) has exceeded $46 billion, from which
       HUD provides flexible grants to help cities, counties, and States recover from presidentially declared disasters.
       These active disaster grants nationwide have approximately $28.3 billion in obligations and $23.1 billion in
       disbursements. Of the total $46 billion in current HUD disaster funds, $5.4 billion has been allocated for the
       Superstorm Sandy recovery area; however, as of March 31, 2013, zero dollars have been obligated or expended.
       Of the $19.6 billion that was provided for Hurricanes Katrina, Rita, and Wilma, $17.5 billion, or 89 percent of
       the funds, has been disbursed for the period ending March 31, 2013. For the $6.1 billion that was provided for
       Hurricanes Ike, Gustav, and Dolly, $2.4 billion, or 39 percent of the funds, has been disbursed for the period ending
       March 31, 2013. Of the $3.4 billion provided for the “9-11” disaster in New York, $2.9 billion, or 83.7 percent, has
       been disbursed for the period ending March 31, 2013. For the $795 million remaining for the other active disasters,
       $222.8 million, or 28 percent of the funds, has been disbursed for the period ending March 31, 2013.
           Keeping up with communities in the recovery process can be a challenging position for HUD. HUD’s Office
       of Inspector General (OIG) continues to take steps to ensure that the Department remains diligent in assisting
       communities with their recovery efforts. In addition, OIG continues its efforts to ferret out waste, fraud, and
       mismanagement of vital funds.




       Audit

       Strategic Initiative 3: Contribute to the strengthening of communities


         key program results                        3 audits7

         Questioned costs                           $710.6 million

         Funds put to better use                    -0-




       7 The disaster grant program reviews are community planning and development audits. The questioned costs relate to only
         disaster-related costs.




26
                                                                                       CHAPTER SIX Disaster Relief Programs




HUD OIG audited HUD’s State CDBG Hurricane Disaster Recovery program for hurricanes that hit the Gulf
Coast States from August 2005 through September 2008 to assess the program overall. Specifically, OIG
wanted to (1) determine what had been accomplished using the funding and the funds remaining to be spent;
(2) compare actual versus projected performance; and (3) identify best practices, issues, and lessons to be
learned. 
    The Gulf Coast States had made progress in recovering from the presidentially declared disasters as a
result of several hurricanes. As of August 2012, the States had spent more than 87.5 percent of the available
Katrina, Rita, and Wilma funds and 27.2 percent of the available Gustav, Ike, and Dolly funds. Thus, States had
received almost $24 billion and disbursed almost $18.4 billion, resulting in about $5.6 billion remaining to be
spent.  However, the States had budgeted only $22.6 billion of the $24 billion in Disaster Recovery funds. The
States used the funding primarily to assist communities in repairing and rebuilding housing, compensating
homeowners, repairing infrastructure damage, and providing economic development. However, some of
their activities had no or nominal progress reported because they did not generally report their progress until
the projects were complete. In addition, while the States generally met the various statutory mandates, Texas
and Louisiana had not met two mandates. Although the States had made progress, there were lessons to be
learned regarding deadlines, program guidance, information system technology acquisitions, procurements,
and homeowners’ insurance. 
    OIG recommended that HUD (1) require the States to report their actual achievements; (2) work with the
States to ensure that they promptly budget all remaining funds in a timely manner; (3) continue to monitor
the States of Louisiana and Texas to ensure that they meet statutory requirements; and (4) work with its
stakeholders to make improvements for current and future grantees in areas such as deadlines, program
guidance, information system technology acquisitions, procurement, and homeowners’ insurance. (Audit
Report:  2013-FW-0001)



HUD OIG conducted a follow-up review regarding its recommendations made to HUD pertaining to OIG’s
inspection of the State of Louisiana’s Road Home Elevation Incentive program, IED-09-002, issued in
March 2010. The objective of the review was to determine whether the State had implemented the four
recommendations in the March 2010 report.
    OIG agreed to close three of the recommendations. For the remaining recommendation regarding the
recovery of $3.8 million awarded to 158 noncompliant homeowners, documentation showed that the State
had recovered nearly $201,000 of the awarded funds. As of August 31, 2012, the State’s documentation showed
that a total of 24,042 homeowners either were noncompliant, including those who had not elevated their
homes; were nonresponsive; or did not provide sufficient supporting documentation. Therefore, the State did
not have conclusive evidence that the $698.5 million in CDBG Hurricane Disaster Recovery program funds
had been used to elevate homes. As a result, this recommendation remains open and has been revised based
on OIG’s follow-up review due to the increased noncompliance among homeowners who received elevation
grants.
    OIG recommended that HUD require the State to (1) enforce program remedies for noncompliance as
stated in grant agreements, starting with the recovery of $437.3 million in elevation grant funds from the
15,027 homeowners who did not elevate their homes within 3 years of the grant agreement date and the State
had not collected any of the funds; (2) determine whether the 8,462 homeowners who did not respond to its




                                                                                                                       27
semiannual report to congress




       monitoring survey used the $245 million in elevation grant funds to elevate their homes or recover these funds
       from the noncompliant homeowners; (3) obtain documentation to validate whether the 553 homeowners
       who received $16 million in grant funds elevated their homes or recover these funds from the noncompliant
       homeowners; (3) enforce its grant review and recovery procedures to ensure that homeowners comply with
       the terms of their elevation grant agreements; and (4) reimburse the uncollectible elevation grant funds from
       non-Federal funds. (Audit Memorandum: 2013-IE-0803)



       HUD OIG audited the City of Cedar Rapids, IA’s Property Acquisition Program to determine whether the
       City (1) expended its Community Development Block Grant (CDBG) Disaster Recovery grant funds for
       property acquisitions in accordance with Federal regulations and (2) complied with all contract procurement
       regulations.
           The City generally expended its CDBG Disaster Recovery grant funds for property acquisitions in
       accordance with applicable Federal regulations. However, it did not ensure a competitive procurement
       process and did not properly execute its CDBG Disaster Recovery-funded contracts. It did not (1)
       adequately advertise requests for proposals for its two professional services contracts, (2) establish the cost
       reasonableness of two contracts totaling more than $12.2 million, (3) obtain city council authorization before
       executing one contract, and (4) include all required provisions in the contracts. The City lacked detailed
       operational procedures, including checklists, to ensure that it followed applicable procurement regulations.
           OIG recommended that HUD work with the State of Iowa to ensure that the City (1) develops and
       implements detailed operational procedures that fully implement its procurement policy and complies with
       its ordinances, (2) justifies more than $9.3 million in spent funds or reimburses the unsupported amount to
       the program, (3) justifies more than $2.8 million in unspent funds or cancels the use of unsupported funds,
       and (4) modifies the contracts to include all required contract provisions. (Audit Report: 2013-KC-1001)




28
                                                                                           CHAPTER SIX Disaster Relief Programs




Investigation
The Office of Investigation (OI) investigates allegations of fraud involving HUD disaster program funds and
conducts oversight throughout the funding process to deter fraud.



Fraud Awareness and Prevention
OI coordinates training for local, State, and Federal oversight entities to include law enforcement, prosecutors,
State licensing entities, insurance companies, and other oversight organizations.


  •	 Fraud awareness and prevention training is provided to grant administrators, grantees, and subgrantees.
  •	 OI works with partners to provide public education for disaster victims.
  •	 OI, in conjunction with the U.S. Department of Justice (DOJ), uses the National Center for Disaster Fraud
    (NCDF) to prepare fraud awareness campaigns to educate the public about potential suspicious activity
    and to monitor reports to the NCDF hotline. This activity includes the use of posters, flyers, mailings, and
    television and bill board advertisements.
  •	 OI provides guidance to the Department and grantees on legal warnings to be incorporated into grant
    documents to deter potential fraudsters.



Investigating Allegations of Fraud
Investigating allegations of fraud starts immediately after funding has been obligated and will continue for
years after the final disbursement of disaster funding. OI works with its law enforcement partners to ensure
vigorous oversight of the funds and pursue criminal or civil prosecutions when merited. These funds will be
used by individual grant recipients as well as many public officials, subgrantees, and contractors. Experience
has shown that there are vulnerabilities in all areas of disaster grant funding that may be subject to fraud.
These investigations can be fairly straightforward or extremely complex. Successful fraud prevention starts
through coordination with OI’s partners. OI has worked extensively with others in the OIG community to
ensure deconfliction and cooperation in all of its endeavors. A majority of fraud allegations come through
the OIG fraud hotline and DOJ NCDF. OI provides onsite resources to NCDF to coordinate any HUD-related
information that comes through its hotline. Specifically, OI has a special agent and a forensic auditor in
Baton Rouge, LA, assigned to NCDF to evaluate incoming fraud leads. OI also works with private monitors
and oversight entities that grantees hire to ensure that they are looking at the areas that OI has identified as
being most vulnerable and reporting any fraud concerns that they detect. OI dedicates significant resources
to the investigation of these allegations. The appropriate investigative technique is determined by the nature
of the allegation. If warranted, OI’s investigative work is referred to Federal, State, or local prosecutors for
consideration of criminal or civil action.




                                                                                                                           29
semiannual report to congress




        SEVEN           Other Significant Audits
                        and Investigations and
                        the OIG Hotline


       Audit

       Strategic Initiative 4: Contribute to improving HUD’s execution
       of and accountability for fiscal responsibilities as a relevant and
       problem-solving advisor to the Department


         Key program results                          14 audits8

         Questioned costs                             $1.8 million

         Funds put to better use                      $733.6 million


       The U.S. Department of Housing and Urban Development, Office of Inspector General’s (HUD OIG) more
       significant audits are discussed below.



       Audit of HUD’s FY 2012 and 2011 Financial Statements
       HUD OIG provided additional details to supplement its report on HUD’s fiscal years (FY) 2012 and 2011
       financial statements, which is included in HUD’s Fiscal Year 2012 Agency Financial Report.
            The financial statements were presented fairly, in all material respects, in conformity with accounting
       principles generally accepted in the United States of America.
            The audit disclosed one material weakness, seven significant weaknesses, and three instances of
       noncompliance with applicable laws and regulations.


       Material Weaknesses
         •	 Achieving substantial compliance with the Federal Financial Management Improvement Act of 1996
            (FFMIA) continued to challenge HUD.




       8 The total “other” audits, questioned costs, and funds put to better use amounts include American Recovery and
         Reinvestment Act of 2009 (one audit) type audits conducted in the “other” area. The writeups for these audits may be found
         in chapter 5 of this semiannual report.



30
                                                 CHAPTER SEVEN Other Significant Audits and Investigations and the OIG Hotline




Significant Weaknesses
  •	 There were weaknesses in the monitoring of the Office of Public and Indian Housing’s (PIH) program funds.
  •	 HUD’s internal control over financial reporting had serious weaknesses.
  •	 The Office of Community Planning and Development’s information and communication systems
    had weaknesses.
  •	 HUD’s oversight of the administrative control of funds process had weaknesses.
  •	 Deficiencies existed in the monitoring of HUD’s unliquidated obligations.
  •	 Controls over HUD’s computing environment had weaknesses.
  •	 Portfolio management of Federal Housing Administration (FHA) systems needed improvement.


NonCompliance
  •	 HUD did not substantially comply with FFMIA.
  •	 HUD did not substantially comply with the Antideficiency Act.
  •	 FHA did not comply with the Cranston-Gonzalez National Affordable Housing Act of 1990.


We identified $107.7 million in excess obligations and recommended that HUD seek legislative authority
to implement $628 million in offsets against public housing agencies’ excess Section 8 funding. We also
identified several matters that are not material to the financial statements, which were reported separately to
HUD management. (Audit Report: 2013-FO-0003)



Review of HUD’s FY 2012 Compliance With the Improper Payments
Information Act of 2002
HUD OIG audited HUD’s FY 2012 compliance with the Improper Payments Information Act of 2002, as
amended by the Improper Payments Elimination and Recovery Act of 2010 (IPERA), to (1) determine whether
HUD complied with IPERA in accordance with the guidance prescribed by the Office and Management and
Budget (OMB) and (2) assess the accuracy, completeness of reporting, and performance of HUD in reducing
and recapturing improper payments.
    While HUD generally complied with IPERA, it did not meet all of the law’s objectives. The Office of
Chief Financial Officer’s and FHA’s risk assessment processes had weaknesses that limited their ability to
identify programs’ and activities’ susceptibility to improper payments. Additionally, the Office of Multifamily
Housing Programs did not meet two supplemental measure target goals. Further, a lack of reliable data in
the Enterprise Income Verification system hindered management’s ability to accurately measure and reduce
improper payments.
    OIG recommended that HUD program officials address the deficiencies in the program risk assessment
design methodology and strengthen their controls and monitoring efforts to reduce improper payments in
rental housing assistance programs. (Audit Report: 2013-FO-0005)



Review of HUD’s Transition to Internet Protocol Version 6
HUD OIG audited HUD’s transition to Internet Protocol Version 6 (IPv6) as required by OMB. The review
was to determine whether HUD would be able to complete the transition to IPv6 on its public-facing servers
and services and on its internal applications by OMB’s target completion dates. Specifically, OIG wanted




                                                                                                                           31
semiannual report to congress




       to (1) determine whether HUD had completed the key activities for the IPv6 transition to meet the OMB
       Memorandum M-05-22 requirements to demonstrate IPv6 capability on Federal Government network
       backbones by June 2008 and (2) evaluate HUD’s ability to adopt IPv6 on its public-facing servers and services
       by the end of fiscal year 2012 and its internal applications by the end of fiscal year 2014.
           OIG has determined that the contents of this audit report would not be appropriate for public disclosure
       and has, therefore, limited its distribution to selected officials. (Audit Report: 2013-DP-0001)



       Review of HUD’s Implementation of the Integrated Core Financial System
       HUD OIG audited HUD’s plans and procedures for data conversion and system interfaces for the
       implementation of the HUD Integrated Core Financial System (ICFS) as a component of the testing of general
       and technical controls for information systems in connection with the annual audit of HUD’s consolidated
       financial statements.
           HUD did not properly plan and manage the implementation of ICFS. Since 2003, HUD has spent more
       than $35 million on the Integrated Financial Management Improvement Project and does not have an
       operational new core financial system. The initial vision document was initiated in 2003 and issued in 2004. 
       The contract was awarded in September 2010. Before executing the contract, HUD did not update Project
       information, follow up with system owners to ensure that required actions were completed, plan for the
       conversion of public and Indian housing data within the HUD Central Accounting and Program System, set
       up a Project performance measurement baseline for each data conversion cycle, and ensure that the scope of
       the conversion in the conversion plan would meet HUD’s needs and comply with the contract. Also, HUD did
       not ensure that key staff and program office stakeholders were involved in pertinent decisions, establish an
       effective deliverable approval process, ensure that converted data were verified by an independent verification
       and validation contractor, and verify that the contractor complied with the scope of the conversion. Base
       period performance goals and objectives were not met, and additional time and funding will be needed to
       complete the Project.
           OIG recommended that HUD reevaluate the interface approach documents and the data conversion
       plan to ensure that tasks for each section have been adequately completed by HUD’s Project contractor and
       verified by HUD. Specifically, HUD should complete end-to-end testing of the interface processes, secure an
       independent verification and validation contractor for data conversion validation, coordinate with program
       offices to ensure that interface systems are compatible, and ensure that the current financial applications are
       available until a compatible application is complete. (Audit Report: 2013-DP-0003)



       Review of HUD’s Oversight of Private Enforcement Initiative Grants
       HUD OIG audited HUD’s oversight of Private Enforcement Initiative grants awarded under its Fair Housing
       Initiatives program to determine whether HUD performed monitoring to ensure that enforcement grant funds
       were spent in compliance with grant terms and program requirements.
           HUD monitoring generally covered procedures required to ensure that grantees complied with grant
       terms and program requirements. However, HUD did not perform onsite monitoring as required for nearly
       $10.2 million of nearly $40.9 million in enforcement grants awarded during the audit period and did not




32
                                                 CHAPTER SEVEN Other Significant Audits and Investigations and the OIG Hotline




always report monitoring results in a timely manner. As a result, there was no assurance that program
requirements were fully met for grants that were not properly monitored.
    OIG recommended that HUD (1) issue a directive to applicable staff, emphasizing the importance of
onsite monitoring, and (2) develop and implement a tracking process to ensure that grantee monitoring and
related reporting are completed in accordance with HUD policies. (Audit Report: 2013-PH-0003)




Civil Action

Heartland Health Care Center Settled Alleged Violations
of Equity Skimming
The civil division of the Western District of Oklahoma U.S. Attorney’s Office settled alleged violations of equity
skimming against the owners of Heartland Health Care Center of Bethany, Bethany, OK. The equity skimming
allegations stemmed from HUD OIG’s December 2004 audit report outlining the misuse of funds. As a result
of the combined efforts of the U.S. Attorney’s Office, the HUD OIG Offices of Audit and Investigation, and
HUD’s Office of General Counsel, the owners paid $1.75 million to settle the allegations. OIG’s objective was
to assist the U.S. Attorney’s Office in pursuing the owners and managers for their alleged violations of HUD
requirements.
    OIG recommended that HUD allow HUD OIG to post the $1.75 million settlement to HUD’s Audit
Resolution and Corrective Actions Tracking System. (Audit Memorandum: 2013-FW-1801)




Investigation
In addition to investigating fraud and thefts against the major HUD programs, the HUD OIG Office of
Investigation pursues investigations of other crimes against HUD programs, including the theft of funds from
the Government National Mortgage Association. HUD OIG is taking a proactive role to combat consumer fraud,
including mortgage loan origination and foreclosure rescue scams. Many of these investigations are conducted
jointly with the Federal Bureau of Investigation and other Federal, State, and local law enforcement partners.



 Program results

  ADMINISTRATIVE-CIVIL ACTIONS                           1

  CONVICTIONS-PLEAS-PRETRIAL DIVERSIONS                  1




                                                                                                                          33
semiannual report to congress




       Hotline
       The HUD OIG hotline is operational 5 days a week, Monday through Friday, from 10:00 a.m. to 6:00 p.m.
       Eastern Time. The hotline is staffed by 10 full-time OIG employees, who take allegations of waste, fraud,
       abuse, or serious mismanagement in HUD or HUD-funded programs from HUD employees, contractors, and
       the general public. The hotline also coordinates reviews of allegations with internal audit and investigative
       units or with HUD program offices.
           During this reporting period, the hotline received and processed 9,102 contacts -- 87 percent received by
       telephone, 8 percent by email, and 5 percent by mail and fax. Every allegation determined to be related to the
       OIG mission is logged into the hotline database and tracked.
           Of the contacts received, 700 (8 percent) were related to the mission of OIG and were addressed as hotline
       case referrals. Hotline cases are referred to the OIG Offices of Audit and Investigation or to a responsible HUD
       program office for action and response. The following illustration shows the distribution of hotline cases and
       noncase referrals by percentage.




       Hotline cases and noncase referrals

                                 HUD mission- related OIG                     OIG mission-related investigation
                                 hotline referrals, 7%                        and audit referrals, 1%




       Non-OIG mission-related
       referrals, 92%




34
                                                CHAPTER SEVEN Other Significant Audits and Investigations and the OIG Hotline




    The hotline closed 387 cases this reporting period. The closed hotline cases included 79 substantiated
allegations. The Department took corrective actions that resulted in $173,405 in recoveries of losses and more
than $1.6 million in HUD funding that could be put to better use. The recoveries included repayments of
overpaid rental subsidies. Some of the funds that could be put to better use were the result of cases in which
tenants were terminated from public housing or multifamily housing programs for improperly reporting their
incomes or family composition to qualify for rental assistance.




Funds put to better use-recoveries

                                 $1,535,531
 $1,600,000.00                                                               Funds put to better use

                                                                             Recoveries
 $1,400,000.00


 $1,200,000.00


 $1,000,000.00


  $800,000.00


  $600,000.00


  $400,000.00


  $200,000.00                                 $148,405
                                                                          $132,168
                                                                                        $25,000
              $-
                              Public and Indian housing                    Multifamily housing




                                                                                                                         35
semiannual report to congress




         EIGHT           Legisl ation, Regul ation,
                         and Other Directives


       Reviewing and making recommendations on legislation, regulations, and policy issues is a critical part of
       the Office of Inspector General’s (OIG) responsibilities under the Inspector General Act. During this 6-month
       reporting period, OIG committed approximately 355 hours to reviewing 111 issuances. The draft directives
       consisted of 16 notices of funding availability, 63 mortgagee letters and notices, and 32 other directives. OIG
       provided comments on 32 percent (35 of the 111 reviewed) of these draft directives.




       Notices and Policy Issuances

       Single-Family Housing
       During this 6-month period, OIG reviewed and commented on various departmental clearance items affecting
       the Federal Housing Administration’s (FHA) single-family programs. A summary of selected reviews is below.


       Housing counseling - The Dodd Frank Wall Street Reform and Consumer Protection Act mandated the
       establishment of an Office of Housing Counseling within the U.S. Department of Housing and Urban
       Development (HUD) under Subtitle D, known as the Expand and Preserve Home Ownership Through
       Counseling Act, and amended the housing counseling statute to improve the effectiveness of the program by,
       among other things, requiring that the entities and individuals be certified by HUD as competent to provide
       such services and prohibiting distribution of grant funds to agencies found in violation of Federal election
       laws or which have employees found in violation of Federal election laws and requiring the reimbursement
       of grant funds for misuse of funds. OIG reviewed a notice describing the specific organizational steps
       that HUD has taken to establish an Office of Housing Counseling and redelegate authority to the Deputy
       Assistant Secretary for Housing Counseling. The Deputy Assistant Secretary of Housing Counseling is a
       new position established to have primary responsibility within HUD for all activities and matters relating
       to home ownership and rental housing counseling consistent with Section 1442 of the Dodd-Frank Act.
       Three offices report to the Office of Housing Counseling. These offices include (1) the Office of Policy and
       Grant Administration, (2) the Office of Outreach and Capacity Building, and (3) the Office of Oversight and
       Accountability. This notice was published January 3, 2013.


       Risk management - As part of HUD’s efforts to strengthen the risk management practices of FHA, HUD
       published a final rule in 2010, revising its regulations pertaining to FHA approval of mortgage lenders. That
       final rule increased the net worth requirement for FHA-approved lenders and mortgagees, eliminated HUD’s
       approval of loan correspondents, and amended the general standards for lenders and mortgagees. OIG




36
                                                                     CHAPTER EIGHT Legislation, Regulation, and Other Directives




reviewed a proposed notice changing the loan-to-value (LTV) financing available to qualified borrowers
of FHA-insured loans. This notice proposes to set a 95 percent maximum LTV for FHA-insured loans over
$625,000, with certain exemptions. FHA’s annual fiscal year (FY) 2012 report to Congress on the financial
status of the FHA Mutual Mortgage Insurance Fund (MMIF or Fund) reported a decline from FY 2011 in the
Fund’s statutorily mandated capital reserve ratio and cited FHA’s decision to continue taking steps to improve
the MMIF’s short- and long-term outlook. This notice was published on February 6, 2013.


Underwriting - OIG also reviewed a mortgagee letter establishing a requirement for manual underwriting
of loans when the borrower has a decision credit score below 620 and the total fixed payments-to-effective
income (debt-to-income) ratio exceeds 43 percent. This mortgagee letter (2013-ML-05) was published on
January 31, 2013.


Foreclosure moratorium - OIG reviewed a proposed mortgagee letter extending the moratorium an
additional 90 days on the initiation of and already-in-progress foreclosures for counties affected by Hurricane
Sandy that the U.S. Department of Homeland Security’s Federal Emergency Management Agency has declared
eligible for individual assistance. This mortgagee letter (2013-ML-06) was published January 31, 2013.



Community Planning and Development
On March 5, 2013, HUD published a notice advising the public of the initial allocation of $5.4 billion in
Community Development Block Grant Disaster Recovery (CDBG-DR) funds appropriated by the Disaster
Relief Appropriations Act of 2013 for the purpose of assisting recovery in the most impacted and distressed
area declared a major disaster due to Hurricane Sandy. The notice described the applicable waivers and
alternative requirements, relevant statutory provisions for grants provided under the notice, the grant award
process, criteria for plan approval, and eligible disaster recovery activities.
    In addition to the funds allocated in the notice and in accordance with the Appropriations Act, $10
million will be transferred to the Department’s Office of Community Planning and Development, “Program
Office Salaries and Expenses,” for necessary costs, including information technology costs, of administering
and overseeing CDBG–DR funds made available under the Appropriations Act; $10 million will also be
transferred to OIG for necessary costs of overseeing and auditing CDBG–DR funds made available under the
Appropriations Act.
    Congress mandated changes to the HOME Investment Partnerships Program in the Consolidated and
Further Continuing Appropriations Act of 2012. The Act requires participating jurisdictions to (1) repay
HOME funds invested in projects that are not completed within 4 years of the commitment date unless a
waiver is given by HUD, (2) commit FY 2012 HOME funds only when a project has been properly underwritten
and market conditions examined to ensure that there is adequate need for the HOME project, (3) convert
any FY 2012 home ownership units to HOME-assisted rental units if they are not sold within 6 months, and
(4) provide fiscal year 2012 HOME funds only to community housing development organizations that have
demonstrated that they have staff with demonstrated development experience. On May 8, 2012, HUD issued
Notice CPD 12-007 to implement changes required by the Act.
     HUD OIG generally agreed with the proposed changes but included additional changes, which HUD OIG
believes will strengthen the program. These proposed changes had not become final as of March 31, 2013.
Although there are similarities between the law mandated by Congress and the proposed regulatory changes
proposed by HUD, the Act required HUD to immediately implement the congressional requirements on all FY
2012 HOME-funded activities.




                                                                                                                            37
semiannual report to congress




        NINE        Audit Resolution




       In the audit resolution process, Office of Inspector General (OIG) and U.S. Department of Housing and
       Urban Development (HUD) management agree upon needed actions and timeframes for resolving audit
       recommendations. Through this process, OIG hopes to achieve measurable improvements in HUD programs
       and operations. The overall responsibility for ensuring that the agreed-upon changes are implemented rests with
       HUD managers. This chapter describes significant management decisions with which OIG disagrees. It also
       contains a status report on HUD’s implementation of the Federal Financial Management Improvement Act of
       1996 (FFMIA). In addition to this chapter on audit resolution, see appendix 3, table B, “Significant audit reports
       for which final action had not been completed within 12 months after the date of the Inspector’ General’s report.”




       Audit Reports Issued Before Start of the Period
       With No Management Decision as of March 31, 2013

       HUD Lacked Adequate Controls To Ensure the Timely Commitment and
       Expenditure of HOME Funds, Issue Date: September 28, 2009
       HUD OIG audited HUD’s HOME Investment Partnerships Program (HOME). The OIG report included
       a recommendation that the HUD Office of Community Planning and Development (CPD) establish and
       implement controls to ensure that field offices require participating jurisdictions to close out future HOME
       activities within a timeframe that will permit reallocation and use of the funds for eligible activities in time to
       avoid losing them to recapture by the United States Treasury under provisions of Public Law 101-510. 
           OIG rejected two management decisions proposed by CPD to address the recommendation because they
       did not provide for the establishment and implementation of all of the controls that are needed to address the
       recommendation. CPD has not responded to OIG’s follow-up about the need for a management decision for
       this recommendation.
           OIG also recommended that CPD obtain a formal legal opinion from HUD’s Office of General Counsel
       regarding whether


         •	 HUD’s cumulative technique for assessing compliance with commitment deadlines is consistent with and an
           allowable alternative to the 24-month commitment required by 42 U.S.C. (United States Code) 12748 and
         •	 HUD’s first-in, first-out (FIFO) method for assessing compliance with HOME expenditure requirements
           is consistent with and an allowable alternative to the 8-year recapture deadline pursuant to Public Law
           101-510, codified at 31 U.S.C. 1552.




38
                                                                                                CHAPTER NINE Audit Resolution




    CPD obtained a legal opinion from the Assistant General Counsel for Community Development on March
5, 2010. The legal opinion supports the Department’s use of the cumulative approach and FIFO accounting
method. Based on this legal opinion, CPD does not plan to implement OIG’s recommendation to discontinue
use of the FIFO method to account for the commitment and expenditure of HOME funds or the cumulative
technique for assessing deadline compliance.
    OIG requested reconsideration of the opinion. On June 10, 2010, HUD’s General Counsel and Chief
Financial Officer provided additional information regarding HUD’s recapture requirements of the HOME
program statute and CPD’s use of cumulative accounting and the FIFO method for financial management.
    HUD explained that CPD’s use of cumulative accounting in its financial management represents a
reasonable interpretation of the statutory duties imposed on the HUD Secretary and addresses the complex
administrative challenges inherent in managing the HOME Investment Trust. HUD also explained that
obligations and expenditures under the HOME program are accounted for on a FIFO basis by fund type
instead of by fiscal year and that CPD, in enforcing the obligation and expenditure requirements, looks to total
cumulative obligations and expenditures instead of accounting for them by fiscal year. Based on the Chief
Financial Officer’s financial analysis, given the origin of these requirements and the fundamental nature of
this block grant program, HUD believed that the FIFO accounting method for obligations and expenditures by
fund type was consistent with Federal accounting requirements and had no objection to the total cumulative
obligations and expenditures methods used for assessing compliance with the 24-month commitment and
5-year expenditure requirements.
    OIG continues to disagree with CPD’s use of the FIFO method for recognizing commitments and
expenditures that participating jurisdictions make against their HOME appropriations and maintains that
CPD’s cumulative method for determining recapture amounts is not consistent with the requirement cited
at 42 U.S.C. 12748 for recapturing funds not committed by statutory deadline dates. The FIFO accounting
method understates amounts due to be recaptured by Treasury when appropriation accounts are canceled
pursuant to 31 U.S.C. 1552. The cumulative method potentially understates recaptures that HUD makes
pursuant to 42 U.S.C. 12748. OIG submitted a request to the Government Accountability Office (GAO) for an
appropriation law opinion on HUD’s use of the cumulative method. GAO’s opinion is expected this fiscal year.
    Another issue is whether HUD’s accounting for formula grants (for example, the FIFO accounting method)
complies with Federal accounting requirements for maintaining the U.S. Standard General Ledger and general
appropriations law. The accounting issues require review for compliance with Federal accounting standards and
financial system requirements. Since OIG’s last semiannual report date, in conjunction with its annual audit of HUD’s
financial statements, OIG has briefed HUD’s management officials but has not come to an agreement. OIG has asked
for a meeting with Office of Management and Budget (OMB) staff to present the accounting issue. (Audit Report:
2009-AT-0001)


Shea Mortgage, Inc., Allowed the Recording of Prohibited Restrictive
Covenants, Issue Date: September 26, 2012
HUD OIG audited Shea Mortgage’s Federal Housing Administration (FHA) Single Family Housing program to
determine the extent to which Shea Mortgage failed to prevent the recording of prohibited restrictive covenants
or potential liens in connection with FHA-insured loans. Shea Mortgage did not follow HUD requirements at 24
CFR (Code of Federal Regulations) 203.41(a)(3)(iv) and 203.41(b) when it underwrote loans that had executed
and recorded agreements between Shea Homes and the FHA borrower, containing prohibited restrictive
covenants in connection with FHA-insured properties. As a result, 600 uninsurable loans obtained FHA
mortgage insurance (29 claim loans and 571 active loans), placing the FHA insurance fund at unnecessary risk
for potential losses.




                                                                                                                         39
semiannual report to congress




           The OIG report included recommendations that the HUD Office of Single Family Housing (Housing)
       require Shea Mortgage to (1) reimburse the FHA insurance fund for nearly $1.5 million in actual losses
       resulting from the amount of claims and associated expenses paid on 11 loans that contained prohibited
       restrictive covenants; (2) support the eligibility of nearly $2.6 million in claims paid or execute an
       indemnification agreement requiring any unsupported amounts to be repaid for claims paid on 19 loans, for
       which HUD has paid claims but has not sold the properties; and (3) remove prohibited restrictive language
       or execute an indemnification agreement that prohibits it from submitting claims on 27 active loans with
       prohibited restrictive covenants for more than $7.7 million, thereby putting nearly $5.1 million to better use.
           OIG rejected three management decisions proposed by Housing because they were not consistent
       with HUD regulations and prior HUD reviews and determinations. OIG has had discussions with Housing
       regarding the recommendations in question but has not reached an agreeable management decision.
           Housing explained that, while it agrees that Shea Mortgage permitted antispeculative agreements in
       the form of restrictive covenants in violation of 24 CFR 203.41(b), it considers the violations technical, not
       rising to the level of materiality warranting indemnification. In previous reviews, Housing determined that
       the presence of prohibited restrictive covenants is a material statute violation, stating that such properties
       are “not eligible for FHA mortgage insurance.” However, Housing does not intend to hold Shea Mortgage
       accountable for losses stemming from FHA loans that, by definition, are uninsurable under FHA regulations.
       Housing believes that indemnification should be used only for underwriting deficiencies that negatively
       impact the loan.
           OIG continues to disagree with Housing’s determination that prohibited restrictive covenants do not
       warrant indemnification. The use of prohibited restrictive covenants is a systemic, widespread issue that
       requires more specific attention. The recommendations in question were based on HUD’s own precedent
       and determinations that prohibited restrictive covenants are a serious, material deficiency. The FHA loans
       identified in the audit memorandum were determined to be ineligible for FHA insurance; therefore, any loss
       or claim tied to the loans identified represents an unnecessary loss to HUD’s FHA insurance fund.
           Another issue is the determination of funds to be put to better use with regard to active loans that
       were originated with prohibited restrictive covenants. Housing agreed during initial discussions; however,
       the management decision maintained that the amount of funds to be put to better use should be $0. OIG
       continues to disagree, explaining if the lender agrees and provides documentation that all unallowable
       restrictions have been removed and ensures compliance, the amount of funds to be put to better use of
       nearly $5.1 million applies, as the corrective action ensures that the loans in question are eligible for FHA
       insurance and follow HUD rules and regulations. However, if the lender refuses or fails to adequately remove
       all unallowable restrictions, indemnification would be the appropriate remedy, and the potential loss of nearly
       $5.1 million would be put to better use as the loans in question would not be supported by FHA mortgage
       insurance. Both issues have been referred to the Deputy Secretary, and his decision was still pending as of
       March 31, 2013. (Audit Report: 2012-LA-1801)




       Significantly Revised Management Decisions
       Section 5(a)(11) of the Inspector General Act, as amended, requires that OIG report information concerning
       the reasons for any significant revised management decisions made during the reporting period. During the
       current reporting period, there were significant revised management decisions on five audits.




40
                                                                                             CHAPTER NINE Audit Resolution




The Columbus Housing Authority of Columbus, Nebraska,
Improperly Expended and Encumbered Its Public Housing Funds,
Issue Date: August 30, 2006
HUD OIG audited the development activities of the Columbus Housing Authority to determine whether the
Authority expended or encumbered HUD assets for development activities without HUD approval.
    The Authority inappropriately spent more than $204,000 in public housing funds to develop Crown Villa,
a non-HUD multifamily housing development. It also improperly encumbered its public housing assets when
it signed Crown Villa loan documents containing setoff provisions that allowed the bank to take Authority bank
account funds in the event of default on the loans. The Authority defaulted on the loans, and the bank seized
more than $88,000 in public housing funds.
    Among other things, OIG recommended that HUD require the Authority to repay its public housing
program more than $204,000 from non-Federal sources, including nearly $151,000 in startup costs and more
than $53,000 in salaries.
    In its original management decision, HUD agreed to work with the Authority to establish a funding source
and timetable to repay its public housing program more than $204,000. However, HUD recently submitted a
revised management decision proposing termination of the amount due because the Authority’s avenues for
non-Federal funds are no longer available with the implementation of asset management. The Authority does
not have a history of receiving non-Federal funds and is not expected to receive non-Federal funds in the future. 
Accordingly, HUD revised its management decision to pursue the debt forgiveness process for the more than
$204,000, in coordination with action on audit 2006-KC-1014, which compromises and writes off nearly $40,000. 
On March 14, 2013, OIG agreed with the revised management decision. (Audit Report: 2006-KC-1013)



The Columbus Housing Authority of Columbus, Nebraska, Improperly
Spent and Encumbered Public Housing Funds for Its Non-HUD
Development Activities, Issue Date: September 27, 2006
HUD OIG audited the development activities of the Columbus Housing Authority to determine whether the
Authority complied with HUD rules and regulations when operating and managing Crown Villa, a non-HUD
multifamily development.
    The Authority inappropriately spent more than $62,000 in public housing funds to operate its non-HUD
development, Crown Villa. It also inappropriately signed Crown Villa loan documents that contained setoff
provisions allowing the bank to take Authority deposits in the event of default. The Authority defaulted, and
the bank seized more than $88,000 in public housing funds to satisfy the defaulted loans.
    Among other things, OIG recommended that HUD require the Authority to repay its public housing
program more than $62,000 from non-Federal sources, including more than $12,000 in operating expenses
and nearly $50,000 in salaries and unemployment expenses.
    In its original management decision, HUD agreed to work with the Authority to establish a funding
source to repay its public housing program more than $62,000. On February 23, 2011, the Authority repaid its
public housing program more than $22,000 from pre-2004 Housing Choice Voucher program administrative
reserves, leaving a remaining amount owed of nearly $40,000. However, HUD recently submitted a revised
management decision proposing a compromise regarding the amount due because the Authority’s avenues
for non-Federal funds are no longer available with the implementation of asset management. The Authority




                                                                                                                      41
semiannual report to congress




       does not have a history of receiving non-Federal funds and is not expected to receive non-Federal funds in
       the future. Accordingly, HUD revised its management decision to pursue the debt forgiveness process for the
       remaining nearly $40,000, in coordination with action on audit 2006-KC-1013, which terminates and writes off
       more than $204,000. On March 14, 2013, OIG agreed with the revised management decision. (Audit Report:
       2006-KC-1014)



       Albuquerque Housing Services, Albuquerque, NM, Mismanaged Its
       Recovery Act Funding, Issue Date: April 7, 2011
       OIG issued an audit entitled “Albuquerque Housing Services, Albuquerque, NM, Mismanaged Its Recovery Act
       Funding.” Among the issues reported was that Albuquerque Housing Services did not follow the Recovery and
       Reinvestment Act requirement that new appliances be Energy Star or Federal Energy Management Program (FEMP)
       compliant unless the purchase of an energy-efficient appliance was not cost effective to the agency. Albuquerque
       Housing Services stated both verbally and on its Web site that its purchases complied with the requirements.
           At the time of the original management decision, HUD concurred that Albuquerque Housing Services
       paid more than $773,000 for products that were not Energy Star or FEMP compliant. Further, HUD said that
       Albuquerque Housing Services did not document before making the purchases that it was not cost effective
       to purchase energy-efficient appliances. However, HUD also said it was working with Albuquerque Housing
       Services and may accept the additional documentation that Albuquerque Housing Services has provided
       indicating that use of Energy Star appliances may not have been cost effective.
           On March 25, 2013, HUD notified OIG that it had determined that more than $773,000 paid for products
       that were not Energy Star or FEMP compliant were in the best interest of the taxpayer and the Department.
       HUD stressed that Energy Star appliances would not have been cost effective or provided any reasonable
       savings over the life of the appliance. OIG concurred with the revised management decision on March 29,
       2013, and recorded a reversal of ineligible costs of more than $773,000. (Audit Report: 2011-FW-1007)



       AmericaHomeKey, Inc., Dallas, TX, Did Not Follow HUD-FHA Loan
       Requirements in Underwriting 13 of 20 Manufactured Home Loans,
       Issue Date: September 30, 2011
       OIG issued an audit entitled “AmericaHomeKey, Inc., Dallas, TX, Did Not Follow HUD-FHA Loan
       Requirements in Underwriting 13 of 20 Manufactured Home Loans.” The mortgage company underwrote
       13 loans that were ineligible for FHA insurance. When the report was issued, four of the ineligible loans
       with unpaid principal balances of nearly $583,000 had not been conveyed, and HUD had not paid any
       claims. The report estimated that if the ineligible loans were conveyed and resold, HUD would incur losses
       of nearly $344,000 on the conveyance and resale of the four properties. An indemnification agreement
       would make the mortgage company responsible for any losses incurred on the loans. Therefore, OIG
       recommended (recommendation 1A) and HUD agreed to request that AmericaHomeKey indemnify it for
       the four loans. Four additional ineligible loans with unpaid principal balances of more than $576,000 had
       not been conveyed, but HUD had paid some claims. The report estimated that if the ineligible loans were




42
                                                                                            CHAPTER NINE Audit Resolution




conveyed and resold, HUD would incur losses of nearly $340,000 on the conveyance and resale of the four
properties. An indemnification agreement would make the mortgage company responsible for any losses
incurred on the loans. Therefore, OIG recommended (recommendation 1B) and HUD agreed to request
that AmericaHomeKey indemnify it for the four loans. OIG concurred with the management decisions for
both recommendations on February 14, 2012.
    On March 22, 2012, the Mortgagee Review Board withdrew FHA approval for AmericaHomeKey
to originate FHA loans, and AmericaHomeKey went out of business. Therefore, there would be no
indemnification agreement and no cost savings or cost avoidance. HUD submitted revised management
decisions on October 10, 2012, to close the recommendations, and OIG concurred with the revised
management decisions on January 2, 2013. (Audit Report: 2011-FW-1016)



The Sanford Housing Authority Lacked Adequate Management of and
Controls Over Its Public Housing and Section 8 Programs, Issue Date:
October 28, 2011
HUD OIG audited the Sanford Housing Authority to assess issues raised in a congressional referral concerning
alleged improper use or mismanagement of the Authority’s public housing, American Recovery and
Reinvestment Act, and Section 8 Housing Choice Voucher program funds. OIG questioned the use of more
than $1.2 million, which the prior executive director and board spent or allowed to be spent for costs that were
abusive or ineligible, not reasonable, or not properly supported. The audit also identified inadequate controls
over reimbursements due from other housing agencies for the Housing Choice Voucher program. Some of
the questioned expenditures represented abuses in violation of Federal, HUD, and Authority requirements
or policies. Other portions of the expenditures diverted funds that could have been used to address some
of the projects’ repair needs. The audit detected some of the same types of significant findings or concerns
mentioned in past reviews of the Authority’s operations conducted by HUD and the Authority’s independent
auditors. These conditions occurred because the prior executive director and board failed to properly manage
the Authority’s operational and financial affairs. As a result, HUD is now obligated to spend more than $9
million to relocate tenants and demolish public housing units that might have been preserved through proper
management of project operations.
    OIG initially recommended and the Director of HUD’s Jacksonville Office of Public Housing agreed to
assess the $1.2 million (recommendations 1C, 1E, 1F, 1G, and 1H) questioned by the audit and to (1) seek
recovery from the appropriate individuals for Authority funds that were used for personal or nonofficial and
abusive purposes, (2) reimburse ineligible costs and the unnecessary redevelopment plan costs that were not
budgeted, (3) determine the reasonableness of costs that were not properly procured and reimburse amounts
determined to have been excessive, and (4) reimburse costs that were not properly supported if it cannot
establish that the costs were for reasonable and necessary project expenditures. These recommendations
were in addition to other recommendations for administrative sanctions, which are still being considered for
action by the Departmental Enforcement Center.
    After reaching management decisions in which HUD agreed to require repayment of the $1.2 million,
HUD determined that the authority has no non-Federal funds to repay the questioned cost. As a result, HUD
revised its management decisions, proposing to seek approval from the Deputy Secretary to pursue the debt
forgiveness process for all portions of the $1.2 million that prove to be uncollectable following reasonable
collection efforts. On March 29, 2013, OIG agreed with the revised management decisions. (Audit Report:
2012-AT-1002)




                                                                                                                     43
semiannual report to congress




       Significant Management Decision With Which OIG Disagrees
       During the reporting period, there was one report in which the OIG disagreed with the significant
       management decision.



       Los Angeles Multifamily Hub’s Monitoring of the Performance-Based
       Contract Administrator, Issue Date: November 5, 2007
       HUD OIG audited HUD’s Los Angeles multifamily hub regarding its monitoring of its annual contributions
       contract with a nonprofit performance-based contract administrator, Los Angeles LOMOD. OIG’s objective
       was to determine whether the multifamily hub appropriately monitored the contractor.
           The multifamily hub did not properly monitor the contractor in accordance with HUD guidance or
       its annual contributions contract. A major aspect of this finding was that the multifamily hub did not
       appropriately follow up on findings in its 2004 annual compliance review of the contractor, resulting in the
       inappropriate reversal of three of its annual compliance review findings and the contractor’s continuing to
       make mistakes similar to those noted in the annual compliance review.
           Among other things, OIG recommended that the multifamily hub ensure that the contractor would
       not be reimbursed for a more than $105,000 reduction in incentive fees for the findings in the 2004
       compliance review that had been improperly reversed (recommendation 1A) and assess nearly $1.4
       million in disincentives and reductions to the incentive fee for contractor deficiencies identified by OIG
       (recommendation 1B).
           In the original March 2008 management decision, the then Deputy Assistant Secretary for Multifamily
       Housing Programs agreed that more than $105,000 in annual compliance review disincentives would
       remain in effect and that HUD had already assessed nearly $1.4 million in disincentives and incentive fee
       reductions and withheld the funds in accordance with the OIG recommendations. Although HUD provided
       documentation showing that the actions had already been implemented, due to stipulations in the annual
       contributions contract granting the contractor an appeals process, the recommendations were to be kept
       open until the appeals process had been completed to ensure that the amounts were upheld. However, in
       October 2008, the multifamily hub reversed all of the applicable questioned costs and distributed the funds to
       the contractor without proposing a revised management decision or otherwise informing OIG. In June 2011,
       OIG elevated the matter to the Deputy Assistant Secretary for Multifamily Housing Programs after the Los
       Angeles hub submitted proposed revised management decisions requesting to close the recommendations.
       Based on subsequent analysis and discussion with HUD, OIG agreed to reduce the questioned costs under
       recommendation 1B to just over $1 million. In January 2013, HUD submitted revised management decisions
       to close the recommendations based on a HUD Office of General Counsel opinion stating that HUD would
       not realistically be able to reassess the disincentives and incentive fee reductions.
           Although OIG agreed to close the recommendation based on the Office of General Counsel
       recommendation, OIG strongly disagrees with the multifamily hub’s March 2008 reversal and payment of the
       questioned costs in direct contradiction to the management decisions, without OIG’s knowledge. It is OIG’s
       view that this action resulted in the contractor’s receiving more than $1 million in fees to which it was not
       entitled. (Audit Report: 2008-LA-0001)




44
                                                                                            CHAPTER NINE Audit Resolution




Federal Financial Management Improvement Act of 1996
HUD did not substantially comply with FFMIA during fiscal year (FY) 2012. HUD made limited progress
in bringing its financial management systems into compliance with FFMIA. However, HUD’s financial
management systems continued to not meet current requirements. HUD’s systems were not operated in an
integrated fashion and linked electronically to efficiently and effectively provide agencywide financial system
support necessary to carry out the agency’s mission and support the agency’s financial management needs.
    HUD’s financial systems, many of which were developed and implemented before the issue date of current
standards, were not designed to provide the range of financial and performance data currently required. The
modernization project, HUD’s Integrated Financial Management Improvement Project, was launched in FY 2003
but was plagued by delays. Originally planned for implementation in 2006, the contract for the Project was not
awarded until September 23, 2010. With the award of the contract, HUD anticipated implementation of phase I
of the Project in time to have all of the FY 2012 financial data within the new system. 
    In March 2012, work on the Project was stopped, and HUD began reevaluating its options for the Project.
In March 2012, Project sponsorship was transferred from the Office of the Chief Financial Officer (OCFO) to
the Deputy Secretary. The Deputy Secretary and a working group comprised of OCFO, the Office of the Chief
Information Officer, and the Office of the Chief Procurement Officer are reassessing HUD’s options. OMB has
stopped funding the Project until HUD can provide a more detailed Project management plan. Since 2003,
HUD has spent more than $35 million and does not have an operational new core financial system to show for
this investment.
    FFMIA requires OIG to report in its Semiannual Reports to the Congress instances and reasons when an
agency has not met the intermediate target dates established in its mediation plan required by FFMIA. At the
end of 2012, HUD reported that 3 of the 39 financial management systems were not in substantial compliance
with FFMIA. These three systems are the HUD Procurement System (HPS), Small Purchase System (SPS),
and Facilities Integrated Resources Management System (FIRMS). HUD acquired a new application, HUD
Integrated Acquisition Management System (HIAMS), to replace HPS and SPS on September 30, 2010. The
HIAMS application went live on October 1, 2011. The HIAMS implementation used a phased approach;
therefore, HPS and SPS were still operational and used during FY 2012.
    OIG performed a limited review of the implementation of HIAMS and found that obligation balances
in HIAMS were inaccurate and did not match the balances in HUD’s Centralized Accounting Program
System (HUDCAPS). Because HPS and SPS did not contain the same level of contract data that is required
in HIAMS, OCPO developed a data cleanup and transfer process that used a combination of electronic and
manual migration of data from the legacy systems to HIAMS. Due to the legacy systems’ limitations in
capturing subaccount line data, the contracting officials used hardcopy award documents to manually enter
the appropriate subaccount line data into the HIAMS application. Discrepancies were identified, and HUD
initiated a reconciliation process to correct the data within HIAMS. As a result of the data discrepancies
between the HIAMS and HUDCAPS applications, the HIAMS application was not compliant with the
requirements of FFMIA for FY 2012.
    The FIRMS application does not interface with any other HUD system as required for a property
management system. Additionally, FIRMS was not fully operational in FY 2012 because the contract had
expired and a new procurement contract had not been executed as of September 30, 2012. Therefore, FIRMS
was not compliant with the requirements of FFMIA for FY 2012.




                                                                                                                     45
semiannual report to congress




           Additionally, OIG continues to report that the Integrated Disbursement and Information System (IDIS)
       was not in substantial compliance with FFMIA due to the use of a FIFO technique to disburse formula grants.
       OIG determined that this technique did not comply with Federal accounting standards or budgetary internal
       control requirements, resulting in IDIS’ being noncompliant with FFMIA. However, HUD continues to report
       IDIS as compliant.
           Although HUD certified 36 individual systems as compliant with Federal financial management systems
       requirements, HUD did not perform independent reviews of all of its financial management systems in
       accordance with OMB Circular A-127 in the last 3 years. Instead, HUD relied upon the results of OMB Circular
       A-123 and Federal Information Security Management Act annual internal control reviews for individual
       applications. Collectively and in the aggregate, deficiencies continued to exist.




46
                                                                                          APPENDIX ONE PEER REVIEW REPORTING




 APPENDIX ONE                 peer review reporting



Background
The Dodd-Frank Wall Street Reform and Consumer Protection Act (Public Law No. 111-203), section 989C,
requires inspectors general to report the latest peer review results in their semiannual reports to Congress.
The purpose in doing so is to enhance transparency within the government. Both the Office of Audit and
Office of Investigation are required to undergo a peer review of their individual organizations every 3 years.
The purpose of the review is to ensure that the work completed by the respective organizations meets the
applicable requirements and standards. The following is a summary of the status of the latest round of peer
reviews for the OIG.



Office of Audit

Peer Review Conducted on HUD OIG
The U.S. Department of Housing and Urban Development, Office of Inspector General (HUD OIG), received a
grade of pass (the highest rating) on the peer review report issued by U.S. Department of Education Inspector
General on September 28, 2012. There were no recommendations included in the System Review Report. The
report stated:


         In our opinion, the system of quality control in effect for the year ended March 31,
         2012, for the audit organization of the HUD OIG has been suitably designed and
         complied with to provide the HUD OIG with reasonable assurance of performing and
         reporting in conformity with applicable professional standards in all material respects.
         Federal audit organizations can receive a rating of pass, pass with deficiencies, or fail.
         The HUD OIG has received a peer review rating of pass.



Peer Review Conducted by HUD OIG on DoD
HUD OIG conducted an external peer review of the U.S. Department of Defense (DoD), OIG, Office of Audit,
and issued a final report November 13, 2012. DoD OIG received a peer review rating of pass (with a scope
limitation). There are no outstanding recommendations.



Office of Investigation

Peer Review Conducted on HUD OIG
The most recent peer review of the Office of Investigation was conducted in 2011 by the U.S. Department
of Health and Human Services OIG. The results of the peer review found HUD OIG’s Office of Investigation
compliant (the highest rating) with the quality of standards established by the inspector general community
and the attorney general guidelines.




                                                                                                                        47
semiannual report to congress




     APPENDIX 2                 Audit Reports Issued



  Internal Reports
  Audit Reports

  Chief Financial Officer

                         Additional Details To Supplement Our Report on HUD’s Fiscal Years 2012 and
  2013-FO-0003
                         2011 Financial Statements, 11/15/2012. Better use: $733,592,718.

                         HUD’s Compliance With the Improper Payments Elimination and Recovery Act of 2010,
  2013-FO-0005
                         03/15/2013.

  Chief Information Officer

  2013-DP-0001           Review of HUD’s Transition to Internet Protocol Version 6, 11/28/2012.

  Chief Procurement Officer

                         Audit of Incorrect Payments to the Project Contractor for Data Conversion Tasks Related
  2013-DP-0002
                         to the Implementation of HUD’s Integrated Core Financial System, 12/04/2012.

                         Fiscal Year 2012 Review of Information Systems Controls in Support of the
  2013-DP-0005
                         Financial Statements Audit, 03/14/2013.

  Community Planning and Development

                         HUD’s Proposed HOME Regulations Generally Addressed Systemic Deficiencies, but
  2013-BO-0001
                         Field Office Monitoring and Data Validation Need Improvement, 02/12/2013.

                         Generally, HUD’s Hurricane Disaster Recovery Program Assisted the Gulf Coast States’
  2013-FW-0001
                         Recovery; However, Some Program Improvements Are Needed, 03/28/2013.

                         HUD Effectively Administered the Homelessness Program, but Measuring
  2013-NY-0001
                         the Program’s Outcome Presented Challenges, 10/18/2012.

  Deputy Secretary

                         Review of the Data Conversion Activities and Interface Plans and Procedures for
  2013-DP-0003
                         the Implementation of HUD’s Integrated Core Financial System, 12/19/2012.

  Fair Housing and Equal Opportunity

                         HUD Did Not Always Adequately Monitor Enforcement Grants Awarded
  2013-PH-0003
                         Through Its Fair Housing Initiatives Program, 01/24/2013.




48
                                                                                                          APPENDIX TWO Audit Reports Issued




   Government National Mortgage Association

  2013-DP-0004             Technical Security Control Weaknesses in Selected Ginnie Mae Applications, 02/28/2013.

                           Audit of the Government National Mortgage Association’s (Ginnie Mae)
  2013-FO-0001
                           Financial Statements for Fiscal Years 2012 and 2011, 11/07/2012.

   Housing

                           HUD Did Not Always Provide Adequate Oversight of Its Assisted Living Conversion Program,
  2013-CH-0001
                           01/04/2013.

  2013-FO-0002             Audit of the FHA’s Financial Statements for Fiscal Years 2012 and 2011, 11/09/2012.

                           Information System Deficiencies Noted During Federal Housing Administration’s
  2013-FO-0004
                           Fiscal Year 2012 Financial Statement Audit, 01/15/2013.

                           HUD’s Region 3 Multifamily Housing Offices Generally Ensured That Section 236 Rent and Excess
  2013-PH-0001
                           Income Requirements Were Met, 12/11/2012. Questioned: $74,212; unsupported: $19,121.

                           HUD Policies Did Not Always Ensure That Borrowers Complied With Program
  2013-PH-0002
                           Residency Requirements, 12/20/2012. Better use: $524,993.

  Audit-Related Memorandums9

   Chief Information Officer

  2013-DP-0801             Improper Release of Personally Identifiable Information, 11/06/2012.

   Community Planning and Development

                           Follow-up of the Inspections and Evaluations Division on Its Inspection of the State of
  2013-IE-0803             Louisiana’s Road Home Elevation Incentive Program Homeowner Compliance (IED-09-
                           002, March 2010), 03/29/2013. Questioned: $698,343,830; unsupported: $261,030,993.

   HOusing

                           HUD Paid for Unnecessary REO M&M III Field Service Manager Administrative Costs, 10/03/2012.
  2013-LA-0801
                           Better use: $4,914.

   Office of Chief Human Capital Officer

  2013-IE-0802             Evaluation of HUD’s Toll Free Telephone Lines, 02/13/2013.




9 The memorandum format is used to communicate the results of reviews not performed in accordance with generally accepted government
   audit standards, to close out assignments with no findings and recommendations, to respond to requests for information, to report on the
   results of a survey, or to report the results of civil actions or settlements.




                                                                                                                                        49
semiannual report to congress




  Office of Strategic Planning and Management

  2013-IE-0801           American Recovery and Reinvestment Act Lessons Learned Initiative, 10/18/2012.

  Public and Indian Housing

                         Corrective Action Verification, City of Hawthorne, CA, Section 8 Program, Audit Report
  2013-LA-0802
                         2011-LA-1008, 02/15/2013.


  External Reports
  Audit Reports

  Community Planning and Development

                         The Municipality of Ponce Did Not Always Ensure Compliance With HOME Investment
  2013-AT-1001           Partnerships Program Requirements, Ponce, PR, 11/30/2012. Questioned: $3,896,782;
                         unsupported: $3,896,782: better use: $286,502.

                         The Municipality of Arecibo Did Not Always Ensure Compliance With CDBG Program
  2013-AT-1003
                         Requirements, Arecibo, PR, 03/22/2013. Questioned: $5,233,524; unsupported: $4,680,866.

                         The City of Cleveland Lacked Adequate Controls Over Its HOME Investment Partnerships
  2013-CH-1001
                         Program, Cleveland, OH, 02/12/2013. Questioned: $471,456; unsupported: $248,762.

                         The City of Cedar Rapids Did Not Ensure a Competitive Procurement Process and Did Not
  2013-KC-1001           Properly Execute Its CDBG Disaster Recovery-Funded Contracts, Cedar Rapids, IA, 10/23/2012.
                         Questioned: $12,210,247; unsupported: $12,210,247.

                         The City of Inglewood Did Not Administer HOME Investment Partnerships Program Funds in
  2013-LA-1001           Accordance With HUD Rules and Requirements, Inglewood, CA, 12/06/2012. Better use:
                         $2,621,693.

                         The City of Albany CDBG Recovery Act Program, Albany, NY, 12/06/2012. Questioned:
  2013-NY-1001
                         $745,973; unsupported: $740,682.

                         Morris County’s CDBG Program Had Weaknesses in Its Financial and Administrative Controls,
  2013-NY-1003           Morris County, NJ, 01/23/2013. Questioned: $160,205; unsupported: $129,735; better use:
                         $151,729.

                         The City of Paterson Had Weaknesses in the Administration of Its Housing Opportunities for
  2013-NY-1004           Persons with AIDS Program, Paterson, NJ, 02/25/2013. Questioned: $373,576; unsupported:
                         $357,800; better use: $963,681.

                         Luzerne County Did Not Properly Evaluate, Underwrite, and Monitor a High-Risk Loan, Wilkes-
  2013-PH-1001
                         Barre, PA, 10/31/2012. Questioned: $5,999,894.




50
                                                                                                          APPENDIX TWO Audit Reports Issued




                           The City of Baltimore Did Not Administer Its Homelessness Prevention and Rapid
  2013-PH-1002             Re-Housing Program Grant According to Recovery Act Requirements, Baltimore,
                           MD, 11/09/2012. Questioned: $9,472,118; unsupported: $9,472,118.

                           The Idaho Housing and Finance Association, Boise, ID, Did Not Always Comply With HOME
  2013-SE-1001             Investment Partnerships Program Match and Compliance Monitoring Requirements,
                           Portland, OR, 12/21/2012. Questioned: $20,826,382; unsupported: $16,425,654.

   Housing

                           McClain Barr and Associates Did Not Properly Charge Frontline Costs to Its Properties,
  2013-AT-1002
                           Summerfield, NC, 03/20/2013. Questioned: $872,457; unsupported: $803,887.

                           Ofori & Associates, PC, Did Not Always Comply With Its REO Contract and Marketing Plan
  2013-BO-1001
                           Requirements, Hartford, CT, 02/19/2013. Questioned: $64,661; unsupported: $60,411.

                           Eustis Mortgage Corporation Did Not Always Comply With HUD-FHA Underwriting and Quality
  2013-FW-1002
                           Control Program Requirements, New Orleans, LA, 03/21/2013. Better use: $279,456.

                           Bay Vista Methodist Heights Violated Its Agreement With HUD When Administering Its Trust
  2013-LA-1003
                           Funds, San Diego, CA, 03/14/2013. Questioned: $6,248,795; unsupported: $1,056,252.

   Public and Indian Housing

                           The Cherokee Nation Generally Administered Its Recovery Act Funds According to
  2013-FW-1001
                           Requirements, Tahlequah, OK, 03/12/2013. Questioned: $16,902; unsupported: $16,902.

                           The Slidell Housing Authority Did Not Always Properly Operate Its Section 8 Program,
  2013-FW-1003
                           Slidell, LA, 03/21/2013. Questioned: $104,922; unsupported: $69,462; better use: $85.

                           The Southern Nevada Regional Housing Authority Did Not Always Administer Its Recovery
  2013-LA-1002             Act Capital Fund Grants in Accordance With Recovery Act and HUD Requirements,
                           Las Vegas, NV, 01/23/2013. Questioned: $7,309; unsupported: $7,309.

                           Hoboken Housing Authority Generally Administered the Recovery Act Capital
  2013-NY-1002             Fund Program in Accordance with Regulations, Hoboken, NJ, 01/04/2013.
                           Questioned: $17,903; unsupported: $17,903; better use: $83,642.

                           West New York Housing Authority Officials Generally Administered Their
  2013-NY-1005             Recovery Act Capital Fund Program in Accordance With Recovery Act and HUD
                           Requirements, West New York, NJ, 03/04/2013. Better use: $68,260.

  Audit-Related Memorandums10

   Community Planning and Development

                           Deutsche Bank, New York, Job Creation and Retention Program Grant, Hotline
  2013-NY-1801
                           Complaint Case Number HL-2012-0199, New York, NY, 01/11/2013.

10 The memorandum format is used to communicate the results of reviews not performed in accordance with generally accepted government
    audit standards, to close out assignments with no findings and recommendations, to respond to requests for information, to report on the
    results of a survey, or to report the results of civil actions or settlements.




                                                                                                                                         51
semiannual report to congress




  General Counsel

                         Final Civil Action: Heartland Health Care Center of Bethany Owners Settled Alleged Violations of
  2013-FW-1801
                         Equity Skimming, Bethany, OK, 03/28/2013. Questioned: $1,750,000.

  Housing

                         Prysma Lending Group, LLC, Complied With HUD-FHA Loan Origination and Quality Control
  2013-BO-1801
                         Requirements, Danbury, CT, 11/14/2012.

                         Standard Pacific Mortgage, Inc., Allowed the Recording of Prohibited Restrictive Covenants,
  2013-LA-1801           Irvine, CA, 02/05/2013. Questioned: $2,925,424; unsupported: $1,390,235; better use:
                         $544,967.

  2013-PH-1802           New Day Financial, LLC, Ensured Loans Met FHA Requirements, Fulton, MD, 03/08/2013.

  Public and Indian Housing

                         Review of the Circumstances Concerning the Abrupt Departure of the Executive Director of the
  2013-PH-1801           Philadelphia Housing Authority and the Potential Improper Use of HUD Funds, Philadelphia, PA,
                         01/10/2013.




52
                                                                                        APPENDIX THREE TABLES




      APPENDIX 3                   tables



Table A

Audit reports issued before the start of period with
no mangement decision at 03/31/2013
*Significant audit reports described in previous semiannual reports



  Report number & title                        Reason for lack of management decision    Issue date

  * 2009-AT-0001 HUD Lacked Adequate
  Controls to Ensure the Timely Commit-        See chapter 9, page 38.                   09/28/2009
  ment and Expenditure of HOME funds

  * 2012-LA-1801 Shea Mortgage, Inc.,
  Allowed the Recording of Prohibited          See chapter 9, page 39.                   09/26/2012
  Restrictive Covenants, Aliso Viejo, CA




                                                                                                         53
semiannual report to congress




Table B

Significant audit reports for which final action had not been completed
within 12 months after the date of the Inspector General’s report


  Report                                                                Issue        Decision     Final
                        Report title
  number                                                                date         date         action

                        Housing Authority of the City of Tupelo,
  2002-AT-1002                                                          07/03/2002   10/31/2002   07/01/2015
                        Housing Programs Operations, Tupelo, MS

                        Nationwide Survey of HUD’s Office of
  2002-KC-0002                                                          07/31/2002   11/22/2002   Note 1
                        Housing Section 232 Nursing Home Program

  2005-AT-1004          Housing Authority of the City of Durham, NC     11/19/2004   03/15/2005   03/15/2015

                        Corporacion Para el Fomento Economico
                        de la Ciudad Capital Did Not Administer Its
  2005-AT-1013                                                          09/15/2005   01/11/2006   Note 1
                        Independent Capital Fund in Accordance
                        With HUD Requirements, San Juan, PR

                        HUD’s Controls over the Reporting, Oversight,
  2006-NY-0001          and Monitoring of the Housing Counseling        06/08/2006   01/08/2007   Note 2
                        Assistance Program Were Not Adequate

                        The Columbus Housing Authority
  2006-KC-1013          Improperly Expended and Encumbered Its          08/30/2006   10/17/2006   11/30/2014
                        Public Housing Funds, Columbus, NE

                        Assessment of HUD’s Compliance With
  2006-DP-0802          OMB Memorandum M-06-16, “Protection             09/21/2006   11/24/2006   09/30/2014
                        of Sensitive Agency Information”

                        HUD Can Improve Its Use of Residual Receipts
  2007-KC-0002                                                          01/29/2007   01/29/2007   Note 1
                        To Reduce Housing Assistance Payments

                        HUD Did Not Recapture Excess Funds
  2007-KC-0003                                                          04/30/2007   08/27/2007   Note 1
                        from Assigned Bond-Financed Projects

                        The Cathedral Foundation of Jacksonville
  2007-AT-1010          Used More Than $2.65 Million in Project         08/14/2007   12/03/2007   04/10/2017
                        Funds for Questioned Costs, Jacksonville, FL

                        Lenders Submitted Title II Manufactured
  2007-KC-0801          Housing Loans for Endorsement Without           09/24/2007   03/11/2008   Note 1
                        the Required Foundation Certifications




54
                                                                                         APPENDIX THREE TABLES




Report                                                         Issue        Decision        Final
               Report title
number                                                         date         date            action

               State of Louisiana, Road Home
               Program, Funded 418 Grants Coded
2008-AO-1002                                                   01/30/2008   05/12/2008      Note 1
               Ineligible or Lacking an Eligibility
               Determination, Baton Rouge, LA

               HUD Lacked Adequate Controls Over
2008-AT-0003   the Physical Condition of Section 8             05/14/2008   09/10/2008      10/31/2014
               Voucher Program Housing Stock

               Review of Selected FHA Major Applications’
2008-DP-0004                                                   06/12/2008   10/08/2008      Note 2
               Information Security Controls

               The Housing Authority of the City of Calexico
2008-LA-1012   Did Not Comply With Public Housing              07/01/2008   10/14/2008      12/31/2013
               Program Rules and Regulations, Calexico, CA

               State of Louisiana, Road Home Program,
               Did Not Ensure That Road Home Employees
2009-AO-1001                                                   05/05/2009   09/16/2009      Note 1
               Were Eligible To Receive Additional
               Compensation Grants, Baton Rouge, LA

               State of Louisiana, Road Home Program,
               Did Not Ensure That Multiple Disbursements
2009-AO-1002                                                   05/05/2009   09/16/2009      Note 1
               to a Single Damaged Residence Address
               Were Eligible, Baton Rouge, LA

               The City of East Cleveland Did Not Adequately
2009-CH-1008   Manage Its HOME Investment Partnerships         05/11/2009   09/08/2009      07/31/2014
               and CDBG Programs, East Cleveland, OH

               The City of Rome Did Not Administer
               Its Economic Development
2009-NY-1012                                                   05/20/2009   09/23/2009      01/30/2032
               Activity in Accordance With HUD
               Requirements, Rome, NY

               Review of Implementation of Security
2009-DP-0005                                                   06/11/2009   11/17/2009      12/31/2014
               Controls Over HUD’s Business Partners

               The Housing Authority of the City of
               Terre Haute Failed To Follow Federal
2009-CH-1011   Requirements and Its Employment                 07/31/2009   11/24/2009      01/01/2030
               Contract Regarding Nonprofit
               Development Activities, Terre Haute, IN




                                                                                                          55
semiannual report to congress




  Report                                                                   Issue        Decision     Final
                        Report title
  number                                                                   date         date         action

                        HUD Subsidized an Estimated 2,094
  2009-KC-0001          to 3,046 Households That Included                  08/14/2009   03/31/2011   Note 1
                        Lifetime Registered Sex Offenders

                        The Office of Affordable Housing Programs’
  2009-CH-0002          Oversight of HOME Investment Partnerships          08/28/2009   12/26/2009   Note 1
                        Program Income Was Inadequate

                        Adams County Did Not Have
  2009-DE-1005          Adequate Controls Over Its Block                   09/17/2009   01/15/2010   Note 1
                        Grant Funds, Westminster, CO

                        HUD Lacked Adequate Controls To
  2009-AT-0001          Ensure the Timely Commitment and                   09/28/2009   03/18/2011   Note 3
                        Expenditure of HOME funds

                        The City of Atlanta Entered Incorrect
                        Commitments Into HUD’s Integrated
  2009-AT-1013                                                             09/28/2009   11/05/2009   Note 1
                        Disbursement and Information System
                        for its HOME Program, Atlanta, GA

                        HUD’s Performance-Based
  2010-LA-0001          Contract Administration Contract                   11/12/2009   03/12/2010   Note 1
                        Was Not Cost Effective

                        Additional Details To Supplement Our
  2010-FO-0003          Report on HUD's Fiscal Years 2009                  11/16/2009   04/02/2010   Note 1
                        and 2008 Financial Statements

                        The State of Iowa Misspent CDBG Disaster
  2010-KC-1001          Assistance Funds and Failed To Check               03/10/2010   09/13/2010   Note 2
                        for Duplicate Benefits, Des Moines, IA

                        The City of East St. Louis Did Not Properly
                        Allocate Salary and Building Expenses or
  2010-KC-1003                                                             03/26/2010   07/22/2010   Note 1
                        Properly Document Its Process To Secure a
                        Consulting Services Contract, East St. Louis, IL

                        The Office of Block Grant Assistance Lacked
  2010-CH-0001          Adequate Controls Over the Inclusion of            03/29/2010   07/27/2010   Note 1
                        Special Conditions in NSP Grant Agreements

                        The Housing Authority of Whitesburg
  2010-AT-1003                                                             04/28/2010   08/26/2010   11/29/2035
                        Mismanaged Its Operations, Whitesburg, KY




56
                                                                                         APPENDIX THREE TABLES




Report                                                         Issue        Decision        Final
               Report title
number                                                         date         date            action

               Sasha Bruce Youthwork, Incorporated,
2010-PH-1008   Did Not Support More Than $1.9 Million          05/11/2010   11/03/2010      Note 1
               in Expenditures, Washington, DC

               The Puerto Rico Department of
               Housing Failed To Properly Manage
2010-AT-1006                                                   06/11/2010   10/08/2010      Note 1
               Its HOME Investment Partnerships
               Program, San Juan, PR

               The Housing Authority, City of Wilson,
2010-AT-1007   Lacked the Capacity To Effectively Administer   07/27/2010   11/24/2010      11/27/2013
               Recovery Act Funds, Wilson, NC

               The Puerto Rico Department of Housing
2010-AT-1011   Did Not Ensure Compliance With HOME             08/25/2010   12/06/2010      Note 1
               Program Objectives, San Juan, PR

               HUD Was Not Tracking Almost 13,000
2010-FW-0003   Defaulted HECM Loans With Maximum Claim         08/25/2010   12/03/2010      Note 2
               Amounts of Potentially More Than $2.5 Billion

               HUD’s Office of Single Family Housing’s
2010-LA-0002   Management Controls Over Its                    09/15/2010   01/13/2011      Note 2
               Automated Underwriting Process

               The City of East St. Louis Awarded Block
               Grant Program Funds to Recipients
2010-KC-1008                                                   09/28/2010   01/26/2011      Note 2
               Without Adequately Verifying Their
               Eligibility, East St. Louis, IL

               HUD Needs To Improve Controls
2010-HA-0003   Over Its Administration of Completed            09/30/2010   01/27/2011      Note 1
               and Expired Contracts

               The City of Flint Lacked Adequate Controls
               Over Its HOME Program Regarding
               Community Housing Development
2011-CH-1001                                                   10/13/2010   02/03/2011      04/30/2013
               Organizations’ Home-Buyer Projects,
               Subrecipients’ Activities, and Reporting
               Accomplishments in HUD’s System, Flint, MI

               The City of Scranton Did Not Administer
2011-PH-1002   Its CDBG Program in Accordance With             11/08/2010   03/08/2011      Note 2
               HUD Requirements, Scranton, PA




                                                                                                          57
semiannual report to congress




  Report                                                              Issue        Decision     Final
                        Report title
  number                                                              date         date         action

                        Additional Details To Supplement Our
  2011-FO-0003          Report on HUD’s Fiscal Years 2010             11/15/2010   08/08/2011   Note 2
                        and 2009 Financial Statements

                        The Irvington Housing Authority
                        Did Not Administer Its Capital Fund
  2011-NY-1003                                                        11/24/2010   03/23/2011   04/30/2013
                        Programs in Accordance With HUD
                        Regulations, Irvington, NJ

                        The City of Binghamton Did Not
                        Always Administer Its Section 108 Loan
  2011-NY-1004                                                        12/21/2010   04/20/2012   04/19/2013
                        Program in Accordance With HUD
                        Requirements, Binghamton, NY

                        The District of Columbia Did Not Administer
  2011-PH-1005          Its HOME Program in Accordance With           12/23/2010   04/22/2011   Note 2
                        Federal Requirements, Washington, DC

                        The City of Cleveland Lacked Adequate
                        Controls Over Its HOME Investment
  2011-CH-1003          Partnerships Program and American             12/27/2010   04/26/2011   10/31/2013
                        Dream Downpayment Initiative-Funded
                        Afford-A-Home Program, Cleveland, OH

                        The Municipality of Arecibo Charged the
  2011-AT-1802          HOME Program With Expenditures That Did       01/27/2011   05/26/2011   Note 2
                        Not Meet Program Objectives, Arecibo, PR

                        The State of Indiana’s Administrator
                        Lacked Adequate Controls Over the
                        State’s HOME Investment Partnerships
  2011-CH-1004                                                        01/31/2011   05/25/2011   10/15/2013
                        Program and American Dream
                        Downpayment Initiative-Funded First
                        Home/PLUS Program, Indianapolis, IN

                        The City of East St. Louis Did Not
                        Properly Manage Housing Rehabilitation
  2011-KC-1001                                                        02/09/2011   06/09/2011   Note 2
                        Contracts Funded by the CDBG
                        Program, East St. Louis, IL




58
                                                                                      APPENDIX THREE TABLES




Report                                                      Issue        Decision        Final
               Report title
number                                                      date         date            action

               The Missouri Housing Development
               Commission Did Not Always Disburse
2011-KC-1003   Its Tax Credit Assistance Program            04/01/2011   07/29/2011      Note 1
               Funds in Accordance With Recovery
               Act Requirements, Kansas City, MO

               The East Orange Revitalization and
               Development Corporation Did Not Always
2011-NY-1009                                                04/07/2011   08/03/2011      Note 2
               Comply With HOME Program Requirements
               and Federal Regulations, East Orange, NJ

               The Municipality of Mayaguez Did
2011-AT-1006   Not Ensure Compliance With HOME              04/08/2011   08/05/2011      Note 2
               Program Objectives, Mayaguez, PR

               The National Servicing Center Implemented
2011-FW-0001   the FHA-HAMP Loss Mitigation Option in       04/08/2011   08/05/2011      Note 2
               Accordance With Rules and Regulations

               The City of Buffalo Did Not Always
2011-NY-1010   Administer Its CDBG Program in Accordance    04/15/2011   01/25/2012      Note 2
               With HUD Requirements, Buffalo, NY

               The State of Mississippi Generally Ensured
2011-AO-1005   That Disbursements to Program Participants   04/18/2011   08/16/2011      Note 2
               Were Eligible and Supported, Jackson, MS

               HUD Did Not Always Follow Its Requirements
               for the Preclosing and Postclosing
2011-LA-0002                                                04/18/2011   08/02/2011      06/30/2013
               Review of Mortgage Files Submitted by
               New Direct Endorsement Lenders

               The Office of Healthcare Programs Could
2011-FW-0002   Increase Its Controls To More Effectively    04/26/2011   08/17/2011      Note 2
               Monitor the Section 232 Program

               The State of Michigan Lacked Adequate
               Controls Over Its NSP Regarding Awards,
2011-CH-1008   Obligations, Subgrantees’ Administrative     06/03/2011   11/30/2011      04/30/2013
               Expenses and Procurement, and Reporting
               Accomplishments, Lansing, MI




                                                                                                       59
semiannual report to congress




  Report                                                                  Issue        Decision     Final
                        Report title
  number                                                                  date         date         action

                        The Lafayette Parish Housing
                        Authority Violated HUD Procurement
  2011-AO-0001                                                            06/22/2011   10/13/2011   12/31/2013
                        Requirements and Executed Unreasonable
                        and Unnecessary Contracts

                        The City of Las Vegas Did Not Always
                        Ensure That Homelessness Prevention
  2011-LA-1012                                                            07/06/2011   10/28/2011   06/28/2013
                        and Rapid Re-Housing Funds Were
                        Used as Required, Las Vegas, NV

                        The City of Dunkirk Used CDBG Recovery Act
  2011-NY-1802                                                            07/14/2011   11/10/2011   Note 2
                        Funding for an Ineligible Activity, Dunkirk, NY

                        Chicanos Por La Causa, Inc., Did Not Always
  2011-LA-1015          Administer Its NSP2 Grant In Accordance           07/22/2011   11/09/2011   Note 2
                        With HUD Requirements, Phoenix, AZ

                        The Housing Authority of the City of
  2011-NY-1011          Elizabeth Had Weaknesses in Its Capital Fund      08/04/2011   11/30/2011   09/30/2013
                        Program’s Financial Controls, Elizabeth, NJ

                        The City of Compton Did Not Administer
  2011-LA-1016          Its HOME Program in Compliance With               08/18/2011   12/15/2011   04/01/2014
                        HOME Requirements, Compton, CA

                        Weymouth Housing Authority Did Not
                        Always Administer Its Housing Choice
                        Voucher Program and Public Housing
  2011-BO-1009                                                            08/29/2011   12/22/2011   06/30/2013
                        Program in Accordance With HUD
                        Regulations and Its Annual Contributions
                        Contracts, Weymouth, MA

                        Weaknesses Existed in Essex County’s
                        Administration of Its Homelessness
  2011-NY-1015                                                            09/20/2011   01/11/2012   Note 2
                        Prevention and Rapid Re-Housing
                        Program, Essex County, NJ

                        The City of Buffalo Did Not Always
                        Disburse Homelessness Prevention and
  2011-NY-1016                                                            09/22/2011   01/25/2012   Note 2
                        Rapid Re-Housing Program Funds in
                        Accordance With Regulations, Buffalo, NY




60
                                                                                     APPENDIX THREE TABLES




Report                                                     Issue        Decision        Final
               Report title
number                                                     date         date            action

               AmericaHomeKey, Inc., Did Not Follow HUD-
2011-FW-1016   FHA Loan Requirements in Underwriting 13    09/23/2011   01/20/2012      Note 2
               of 20 Manufactured Home Loans, Dallas, TX

               The Idaho Housing and Finance Association
               Did Not Always Comply With HOME
2011-SE-1008                                               09/23/2011   01/18/2012      Note 2
               Investment Partnerships Project and
               Cost Eligibility Regulations, Boise, ID

               FHA Did Not Prevent Corporate
2011-KC-0004   Officers of Noncompliant Lenders            09/26/2011   06/28/2012      Note 2
               From Returning to the FHA Program

               The Municipality of San Juan Did Not
2011-AT-1018   Properly Manage Its HOME Investment         09/28/2011   01/12/2012      Note 2
               Partnerships Program, San Juan, PR

               The City of Cleveland Lacked Adequate
               Controls Over Its HOME Investment
2011-CH-1014   Partnerships Program-Funded                 09/29/2011   01/26/2012      02/28/2014
               Housing Trust Fund Program Home-
               Buyer Activities, Cleveland, OH

               The Springfield Metropolitan Housing
               Authority Did Not Administer Its Grant
2011-CH-1015                                               09/30/2011   01/24/2012      05/01/2015
               in Accordance With Recovery Act and
               HUD Requirements, Springfield, OH

               American Recovery and Reinvestment Act
               of 2009 Grantees Met Initial Expenditure
               Requirements, but HUD Should Return
2011-FO-0006                                               09/30/2011   02/15/2012      Note 1
               Recaptured Funds to the U.S. Treasury
               and Ensure That Grant Closeout
               Procedures Comply With the Act

               TXL Mortgage Corporation Did
               Not Comply With HUD-FHA Loan
2012-FW-1001                                               10/06/2011   02/24/2012      05/14/2013
               Requirements in Underwriting 16 of
               20 Home Loans, Houston, TX

               The City of New York Charged Questionable
2012-NY-1002                                               10/18/2011   02/16/2012      Note 2
               Expenditures to Its HPRP, New York, NY




                                                                                                      61
semiannual report to congress




  Report                                                                Issue        Decision     Final
                        Report title
  number                                                                date         date         action

                        The City of Syracuse Did Not Always
  2012-NY-1003          Administer Its CDBG Program in Accordance       10/25/2011   02/22/2012   Note 2
                        With HUD Requirements, Syracuse, NY

                        The Sanford Housing Authority
                        Lacked Adequate Management of and
  2012-AT-1002                                                          10/28/2011   03/20/2012   Note 2
                        Controls Over Its Public Housing and
                        Section 8 Programs, Sanford, FL

                        HUD Needed to Improve Its Use of Its
  2012-PH-0001          Integrated Disbursement and Information         10/31/2011   02/28/2012   Note 2
                        System To Oversee Its CDBG Program

                        The National Community Reinvestment
                        Coalition Did Not Comply With
  2012-PH-1002          Conflict-of-Interest Provisions in Its Fair     11/14/2011   03/06/2012   06/30/2013
                        Housing Initiative Program Agreement
                        With HUD, Washington, DC

                        Additional Details To Supplement Our
  2012-FO-0003          Report on HUD's Fiscal Years 2011               11/15/2011   05/10/2012   04/01/2014
                        and 2010 Financial Statements

                        HUD Did Not Adequately Support the
  2012-LA-0001          Reasonableness of the Fee-for-Service           11/16/2011   03/27/2012   02/27/2015
                        Amounts or Monitor the Amounts Charged

                        Housing Our Communities Did Not
  2012-LA-1001          Administer Its NSP in Accordance With           12/08/2011   03/13/2012   06/28/2013
                        HUD Requirements, Mesa, AZ

                        The City of Modesto Did Not Always Comply
  2012-LA-1003                                                          12/22/2011   04/05/2012   04/01/2013
                        With NSP2 Requirements, Modesto, CA

                        The Housing Authority of the City of
                        Hartford did not Properly Administer its $2.5
  2012-BO-1001                                                          01/06/2012   05/11/2012   05/01/2013
                        Million Recovery Act Grant Construction
                        Management Contract, Hartford, CT

                        The Shelby County, TN, Housing
  2012-AT-1007          Authority Mismanaged Its HUD-                   01/26/2012   05/25/2012   06/01/2035
                        Funded Programs, Memphis, TN




62
                                                                                      APPENDIX THREE TABLES




Report                                                      Issue        Decision        Final
               Report title
number                                                      date         date            action

               The Saginaw Housing Commission
               Did Not Administer Its Grant in
2012-CH-1002                                                01/26/2012   06/04/2012      12/30/2013
               Accordance With Recovery Act, HUD’s,
               and Its Requirements, Saginaw, MI

               MetLife Bank’s Scottsdale, AZ,
               Branch Office Did Not Follow FHA-
2012-LA-1004                                                01/26/2012   05/18/2012      05/18/2013
               Insured Loan Underwriting and
               Quality Control Requirements

               Information System Deficiencies
2012-FO-0004   Noted During FHA’s Fiscal Year               01/27/2012   05/21/2012      05/21/2013
               2011 Financial Statement Audit

               The City of Newark Had Weaknesses in the
2012-NY-1005                                                01/27/2012   04/26/2012      04/22/2013
               Administration of Its HPRP, Newark, NJ

               MLD Mortgage, Inc., Did Not Always Comply
2012-NY-1006   With HUD-FHA Loan Origination and Quality    02/06/2012   05/18/2012      05/18/2013
               Control Requirements, Florham Park, NJ

               HUD Controls Did Not Always Ensure
               That Home Equity Conversion Mortgage
2012-PH-0004                                                02/09/2012   06/08/2012      06/08/2013
               Loan Borrowers Complied With
               Program Residency Requirements

               Audit Report on the Fiscal Year 2011
2012-DP-0001   Review of Information Systems Controls in    02/14/2012   07/02/2012      09/30/2013
               Support of the Financial Statements Audit

               The City of Syracuse Did Not Always
               Administer Its Economic Development
2012-NY-1007                                                02/21/2012   06/12/2012      06/03/2013
               Initiative Program in Accordance With
               HUD Requirements, Syracuse, NY

               Opelousas Housing Authority Did Not
               Always Comply With Recovery Act and
2012-AO-1001                                                02/23/2012   05/10/2012      05/04/2013
               Federal Obligation, Procurement, and
               Reporting Requirements, Opelousas, LA

               The Springfield Housing Authority
2012-CH-1003   Needs To Improve Its ARRA Contract           02/23/2012   06/04/2012      05/11/2013
               Administration Procedures, Springfield, IL




                                                                                                       63
semiannual report to congress




  Report                                                               Issue        Decision     Final
                        Report title
  number                                                               date         date         action

                        The State of Indiana’s Administrator
                        Lacked Adequate Controls Over the
  2012-CH-1004          State’s HOME Investment Partnerships           02/24/2012   06/22/2012   06/22/2013
                        Program Regarding CHDOs’ Activities
                        and Income, Indianapolis, IN

                        The East St. Louis Housing Authority Did Not
  2012-KC-1002          Properly Manage or Report on Recovery          03/02/2012   06/29/2012   05/31/2013
                        Act Capital Funds, East St. Louis, IL

                        The State of Texas Did Not Follow
                        Requirements for Its Infrastructure and
  2012-FW-1005                                                         03/07/2012   07/05/2012   07/05/2013
                        Revitalization Contracts Funded With CDBG
                        Disaster Recovery Program Funds, Austin, TX

                        Bank of America Corporation, Foreclosure
  2012-FW-1802                                                         03/12/2012   07/09/2012   06/30/2013
                        and Claims Process Review, Charlotte, NC

                        The City of Los Angeles Did Not Expend
                        Brownfields Economic Development Initiative
  2012-LA-1005          and Section 108 Funds for the Goodyear         03/13/2012   09/19/2012   03/13/2014
                        Industrial Tract Project in Accordance With
                        HUD Requirements, Los Angeles, CA

                        The Housing Authority of the City of
                        Stamford Did Not Properly Administer
  2012-BO-1002                                                         03/14/2012   08/27/2012   05/31/2013
                        and Oversee the Operations of Its
                        Federal Programs, Stamford, CT

                        Gloucester Township Did Not Always
  2012-PH-1006          Administer Its CDBG-R Act Funds According      03/14/2012   05/30/2012   05/30/2013
                        to Applicable Requirements, Blackwood, NJ

                        Mountain CAP of WV, Inc., Did Not
                        Administer Its HPRP in Accordance
  2012-PH-1008                                                         03/15/2012   07/12/2012   07/12/2013
                        With Applicable Recovery Act and HUD
                        Requirements, Buckhannon, WV

                        The Medford Housing Authority Needs
                        to Improve Rent Reasonableness
  2012-BO-1003          Determinations, Procurement, and               03/21/2012   08/06/2012   05/03/2013
                        Enforcement of Housing Quality
                        Standards, Medford, MA




64
                                                                                             APPENDIX THREE TABLES




 Report                                                            Issue        Decision        Final
                Report title
 number                                                            date         date            action

                Cuyahoga Metropolitan Housing Authority
                Did Not Operate Its Section 8 Housing
 2012-CH-1006                                                      03/29/2012   07/18/2012      06/28/2013
                Choice Voucher Program According to
                HUD’s Requirements, Cleveland, OH

                The State of Michigan Lacked Adequate
 2012-CH-1007   Controls Over Its Use of NSP Funds Under           03/30/2012   07/26/2012      04/22/2013
                the HERA for a Project, Lansing, MI

Significant audit reports issued within the past 12 months that were described
in previous semiannual reports for which final action had not been completed
as of March 31, 2013

 Report                                                            Issue        Decision        Final
                Report title
 number                                                            date         date            action

                The Manhattan Housing Authority
                Improperly Executed a Contract Change
 2012-KC-1004                                                      04/09/2012   07/31/2012      07/31/2013
                Order and Did Not Accurately Report on
                Its Recovery Act Funds, Manhattan, KS

                Corrective Action Verification, City of Tulsa
 2012-FW-1803   – CDBG, Land Use and Program Income,               04/10/2012   08/07/2012      08/07/2013
                Audit Report 2008-FW-1012, Tulsa, OK

                The Aurora Housing Authority Did Not Always
                Follow Requirements When Obligating,
 2012-DE-1004                                                      05/04/2012   06/04/2012      11/30/2013
                Expending, and Reporting Information About
                Its Recovery Act Capital Funds, Aurora, CO

                Amar Plaza Was Not Administered
 2012-LA-1006   in Accordance With HUD Rules and                   05/21/2012   09/17/2012      09/17/2013
                Regulations, La Puente, CA

                The Municipality of Bayamón Did Not
                Always Ensure Compliance With HOME
 2012-AT-1009                                                      05/23/2012   09/18/2012      08/01/2013
                Investment Partnerships Program
                Requirements, Bayamon, PR

                The Management and Board of
                Commissioners of the Housing Authority of
 2012-FW-1008                                                      06/01/2012   09/22/2012      09/21/2013
                the City of Port Arthur Failed To Exercise Their
                Fiduciary Responsibilities, Port Arthur, TX




                                                                                                              65
semiannual report to congress




  Report                                                              Issue        Decision     Final
                        Report title
  number                                                              date         date         action

                        Los Angeles Neighborhood Housing
  2012-LA-1007          Services Did Not Always Properly Administer   06/05/2012   09/21/2012   06/21/2013
                        Its NSP2 Grant, Los Angeles, CA

                        The City of Phoenix Did Not Always
                        Comply With Program Requirements
  2012-LA-1008                                                        06/15/2012   10/15/2012   10/18/2013
                        When Administering Its NSP1 and
                        NSP2 Grants, Phoenix, AZ

                        The Lower Manhattan Development
                        Corporation Approved Invoices That
  2012-NY-1010                                                        07/27/2012   12/04/2012   Note 2
                        Were Not Always Consistent With
                        Subrecipient Agreements, New York, NY

                        The Jefferson Parish Housing Authority
  2012-AO-1002                                                        07/30/2012   12/31/2012   03/19/2014
                        Violated Federal Regulations, Marrero, LA

                        The Lawrence Housing Authority Did
                        Not Obtain HUD Approval To Fund a
  2012-BO-1004                                                        07/31/2012   11/28/2012   06/28/2013
                        Trust Account and Had Weaknesses
                        in Its Controls, Boston, MA

                        Weststar Mortgage Corporation Did
                        Not Comply With HUD FHA Single
  2012-FW-1012                                                        08/02/2012   12/31/2012   08/02/2013
                        Family Requirements for 10 Loans
                        Reviewed, Albuquerque, NM

                        The Hammond Housing Authority Did
                        Not Administer Its Recovery Act Grants in
  2012-CH-1009                                                        08/03/2012   11/30/2012   11/22/2013
                        Accordance With Recovery Act, HUD’s, and
                        Its Own Requirements, Hammond, IN

                        Prince George’s County Generally Did Not
  2012-PH-1011          Administer Its HOME Program in Accordance     08/03/2012   11/30/2012   11/30/2013
                        With Federal Requirements, Largo, MD

                        Washington State Generally Complied With
                        Lead Hazard Control Grant and Recovery
  2012-SE-1005                                                        08/09/2012   10/05/2012   04/30/2013
                        Act Requirements but Charged Excessive
                        Administrative Costs, Olympia, WA

                        The City of Elizabeth Did Not Always
  2012-NY-1011          Administer Its CDBG Program in Accordance     08/15/2012   12/07/2012   08/15/2013
                        With Regulations, Elizabeth, NJ




66
                                                                                          APPENDIX THREE TABLES




Report                                                          Issue        Decision        Final
               Report title
number                                                          date         date            action

               The Aurora Housing Authority Did Not
               Administer Its Grant in Accordance
2012-CH-1010                                                    09/05/2012   01/03/2013      12/31/2013
               With Recovery Act, HUD, and Its
               Own Requirements, Aurora, IL

               HUD Did Not Effectively Oversee
2012-KC-0003   and Manage the Receivership of the               09/05/2012   01/15/2013      12/31/2014
               East St. Louis Housing Authority

               Little Haiti Did Not Fully Comply With Federal
2012-AT-1015                                                    09/06/2012   01/03/2013      07/31/2013
               Rules When Administering NSP2, Miami, FL

               The State of Louisiana Generally Complied
2012-FW-1014                                                    09/07/2012   02/08/2013      04/15/2013
               With Recovery Act HPRP, Baton Rouge, LA

               Innotion Enterprises, Inc., Did Not
2012-LA-1010   Always Comply With Its REO Contract              09/12/2012   01/10/2013      09/11/2013
               Requirements, Las Vegas, NV

               Bankers Mortgage Group Loan
               Originations Did Not Comply With
2012-LA-1011                                                    09/13/2012   01/10/2013      11/15/2013
               FHA-Insured Loan Documentation
               Requirements, Woodland Hills, CA

               FHA Paid Claims for Approximately
2012-KC-0004   11,693 Preforeclosure Sales that Did             09/18/2012   01/14/2013      09/17/2013
               Not Meet FHA Requirements

               HUD Did Not Always Enforce REO
2012-LA-0003                                                    09/18/2012   01/09/2013      09/17/2013
               M&M III Program Requirements

               HUD Did Not Ensure Public Housing
2012-LA-0004   Agencies’ Use of Property Insurance              09/21/2012   12/19/2012      01/01/2014
               Recoveries Met Program Requirements

               The City of Long Beach Did Not Fully
2012-LA-1012   Comply With Federal Regulations When             09/21/2012   12/18/2012      09/20/2013
               Administering Its NSP2 Grant, Long Beach, CA

               The Allegheny County Housing Authority,
               Pittsburgh, PA, Needs To Improve Its
2012-PH-1012   Inspections To Ensure That All Section           09/21/2012   11/29/2012      09/02/2013
               8 Housing Choice Voucher Units Meet
               Housing Quality Standards, Pittsburgh, PA




                                                                                                           67
semiannual report to congress




  Report                                                           Issue        Decision     Final
                        Report title
  number                                                           date         date         action

                        Shea Mortgage, Inc., Allowed the
  2012-LA-1801          Recording of Prohibited Restrictive        09/26/2012   03/01/2013   Note 3
                        Covenants, Aliso Viejo, CA

                        The Stark Metropolitan Housing Authority
                        Did Not Always Administer Its Grant in
  2012-CH-1011                                                     09/27/2012   01/15/2013   09/30/2013
                        Accordance With Recovery Act, HUD’s,
                        and Its Own Requirements, Canton, OH

                        The Saginaw Housing Commission
                        Did Not Always Administer Its Section
  2012-CH-1012          8 Housing Choice Voucher program           09/27/2012   01/07/2013   01/01/2023
                        in Accordance With HUD’s and Its
                        Own Requirements, Saginaw, MI

                        The Flint Housing Commission Did
                        Not Always Administer Its Grants in
  2012-CH-1013                                                     09/27/2012   01/24/2013   06/27/2014
                        Accordance With Recovery Act, HUD’s,
                        and Its Own Requirements, Flint, MI

                        HUD’s Oversight of Recovery Act-
  2012-FO-0006                                                     09/27/2012   03/05/2013   07/15/2013
                        Funded Housing Programs

                        The City of St. Louis Did Not
  2012-KC-1006          Effectively Manage Its Recovery            09/27/2012   01/25/2013   10/31/2013
                        Act Funding, St. Louis, MO

                        Housing Choice Voucher Program Units
                        Did Not Meet HUD’s Housing Quality
  2012-BO-1005          Standards, and Authority Officials Did     09/28/2012   03/14/2013   05/01/2013
                        Not Always Comply with HUD’s or Their
                        Own Procurement Policy, Augusta, ME

                        HUD’s Office of Community Planning
                        and Development Needs To Improve Its
  2012-CH-0801                                                     09/28/2012   02/13/2013   11/30/2013
                        Tracking of HOME Investment Partnerships
                        Program Technical Assistance Activities

                        Mortgage Now Inc. Did Not Always Comply
  2012-CH-1014          With HUD’s Underwriting and Quality        09/28/2012   01/25/2013   09/28/2013
                        Control Requirements, Shrewsbury, NJ




68
                                                                                                             APPENDIX THREE TABLES




  Report                                                                     Issue            Decision          Final
                        Report title
  number                                                                     date             date              action

                        A Summary of the Foreclosure and Claims
                        Process Reviews for Five Mortgage
  2012-CH-1803                                                               09/28/2012       01/30/2013        04/30/2014
                        Servicers That Engaged in Improper
                        Foreclosure Practices, Washington, DC

                        Review of Controls Over
  2012-DP-0005                                                               09/28/2012       12/18/2012        11/08/2014
                        HUD’s Mobile Devices

                        Village of Spring Valley, Hotline
                        Complaint, Federal Housing Finance
  2012-NY-1802                                                               09/28/2012       01/28/2013        06/30/2013
                        Agency Complaint Number Z-12-
                        0445-1, Village of Spring Valley, NY

                        Allen Mortgage, LLC, Did Not Comply
                        With HUD Requirements for Underwriting
  2012-CH-1015          FHA Loans and Fully Implement Its Quality            09/30/2012       02/04/2013        09/30/2013
                        Control Program in Accordance With
                        HUD’s Requirement, Centennial Park, AZ




AUDITS EXCLUDED:
86 auditd under repayment plans
36 audits under debt claims collection processing, formal judicial review, investigation, or legislative solution


NOTES:
1 Management did not meet the target date. Target date is over 1 year old.
2 Management did not meet the target date. Target dae is under 1 year old.
3 No Management decision




                                                                                                                              69
semiannual report to congress



Table C


Inspector General-issued reports with questioned and unsupported costs
at 03/31/2013 (thousands)

                                                                                   Number
                                                                                                     Questioned          Unsupported
  Audit reports                                                                   of audit
                                                                                                         costs                costs
                                                                                  reports

            For which no management decision had been made
  A1                                                                                         39       $1,195,849               $63,843
            by the commencement of the reporting period

            For which litigation, legislation, or
  A2        investigation was pending at the                                                  5             8,960                5,299
            commencement of the reporting period

            For which additional costs were added                                             -               597                  366
  A3
            to reports in beginning inventory

  A4        For which costs were added to noncost reports                                     0                  0                    0

  B1        Which were issued during the reporting period                                    21          769,816               312,635

  B2        Which were reopened during the reporting period                                   0                  0                    0

   Subtotals (A + B)                                                                         65        1,975,222               382,143

            For which a management decision was
  C                                                                                         4311        1,233,189               92,019
            made during the reporting period

            (1) Dollar value of disallowed costs:
                                                                                            2412        1,139,520               14,482
            	         Due HUD
                                                                                             23            66,611               51,024
            	         Due program participants


            (2) Dollar value of costs not disallowed                                         913           27,058               26,508


            For which management decision had been
  D         made not to determine costs until completion                                      5             8,960                5,299
            of litigation, legislation, or investigation

            For which no management decision had been                                        17          733,073               284,825
  E
            made by the end of the reporting period                                  < 52 >14       < 721,438 >14        < 273,190 >14




11 Fifteen audit reports also contain recommendations with funds to be put to better use.
12 Six audit reports also contain recommendations with funds due program participants.
13 Seven audit reports also contain recommendations with funds agreed to by management.
14 The figures in brackets represent data at the recommendation level as compared to the report level. See Explanations of Tables C and D.




70
                                                                                                                         APPENDIX THREE TABLES



Table D


Inspector General-issued reports with recommendations that funds be put
to better use at 03/31/2013 (thousands)


                                                                                                        Number
                                                                                                                               Dollar
  Audit reports                                                                                         of audit
                                                                                                                                value
                                                                                                        reports

            For which no management decision had been made
  A1                                                                                                             21            $883,965
            by the commencement of the reporting period

            For which litigation, legislation, or investigation was pending
  A2                                                                                                              4                17,375
            at the commencement of the reporting period

  A3        For which additional costs were added to reports in beginning inventory                                 -                 389

  A4        For which costs were added to noncost reports                                                         0                      0

  B1        Which were issued during the reporting period                                                        12              739,123

  B2        Which were reopened during the reporting period                                                       0                      0

   Subtotals (A + B)                                                                                             37           1,640,852

  C         For which a management decision was made during the reporting period                               2215              819,974

            (1) Dollar value of recommendations that were agreed to by management:
                                                                                                                 11              800,751
            	         Due HUD
                                                                                                                 11                15,889
            	         Due program participants

            (2) Dollar value of recommendations that were
                                                                                                                 316                3,334
            not agreed to by management

            For which management decision had been made not to determine
  D                                                                                                               4                17,375
            costs until completion of litigation, legislation, or investigation

            For which no management decision had been                                                            11              803,503
  E
            made by the end of the reporting period                                                        < 16 >   17
                                                                                                                              < 16,502>17



15 Fifteen audit reports also contain recommendations with questioned costs.
16 Three audit reports also contain recommendations with funds agreed to by management.
17 The figures in brackets represent data at the recommendation level as compared to the report level. See Explanations of Tables C and D.




                                                                                                                                             71
semiannual report to congress




Explanations of Tables C and D



The Inspector General Act Amendments of 1988 require inspectors general and agency heads to report cost data on
management decisions and final actions on audit reports. The current method of reporting at the “report” level rather than
at the individual audit “recommendation” level results in misleading reporting of cost data. Under the Act, an audit “report”
does not have a management decision or final action until all questioned cost items or other recommendations have a
management decision or final action. Under these circumstances, the use of the “report” based rather than the
“recommendation” based method of reporting distorts the actual agency efforts to resolve and complete action on audit
recommendations. For example, certain cost items or recommendations could have a management decision and
repayment (final action) in a short period of time. Other cost items or nonmonetary recommendation issues in the same
audit report may be more complex, requiring a longer period of time for management’s decision or final action. Although
management may have taken timely action on all but one of many recommendations in an audit report, the current “all or
nothing” reporting format does not recognize those efforts.
     The closing inventory for items with no management decision in tables C and D (line E) reflects figures at the report
level as well as the recommendation level.




72
                                                 OIG Telephone Directory




OIG Telephone Directory



Office of Audit

Headquarters 		  Washington, DC						202-708-0364
Office of Audit						



Region 1/2	   		New York, NY	 					212-264-4174
				Albany, NY						518-462-2892
				Boston, MA						617-994-8380
				Buffalo, NY						716-551-5755
				Hartford, CT						860-240-4832
				Newark, NJ						973-776-7339


Region 3			         Philadelphia, PA						215-656-0500
				Baltimore, MD						410-962-2520
				Pittsburgh, PA						412-644-6372
				Richmond, VA						804-771-2100



Region 4			         Atlanta, GA	   					404-331-3369
				Greensboro, NC						336-547-4001
				Jacksonville, FL						904-232-1226
				Knoxville, TN						865-545-4400
				Miami, FL						305-536-5387
				San Juan, PR						787-766-5540


Region 5			         Chicago, IL						312-353-7832
				Columbus, OH						614-469-5745
				Detroit, MI						313-226-6280



Region 6			         Fort Worth, TX						817-978-9309
				Baton Rouge, LA						225-448-3976
				Houston, TX						713-718-3199
				New Orleans, LA						504-671-3715
				Albuquerque, NM						505-346-7270
				Oklahoma City, OK					405-609-8606
				San Antonio, TX						210-475-6800




                                                                     73
semiannual report to congress



Region 7/8/10		 Kansas City, KS						913-551-5870
				St. Louis, MO						314-539-6339
				Denver, CO						303-672-5452
				Seattle, WA						206-220-5360



Region 9			                     Los Angeles, CA						213-894-8016
				Las Vegas, NV						702-336-2100
				Phoenix, AZ						602-379-7250
				San Francisco, CA					415-489-6400
				


Office of Investigation
Headquarters 		 Washington, DC						202-708-0390
Office of
investigation						



Region 1/2			                   New York, NY						212-264-8062
				Boston, MA						617-994-8450
				                            Buffalo, NY				         		   716-551-5755		
				Hartford, CT						860-240-4800
				Manchester, NH						603-666-7988
				Newark, NJ						973-776-7355


Region 3			                     Philadelphia, PA						215-430-6758
				Baltimore, MD						410-209-6533
				Pittsburgh, PA						412-644-6598
				Richmond, VA						804-822-4890
				Washington, DC						202-287-4100



Region 4			                     Atlanta, GA	   					404-331-5001
				Birmingham, AL						205-745-4314
				Columbia, SC						803-451-4318
				Greensboro, NC						336-547-4000
				Hattiesburg, MS						601-434-5848
				Jackson, MS						601-965-4700
				Memphis, TN						901-554-3148
				Miami, FL						305-536-3087
				Nashville, TN						615-736-2332
				San Juan, PR						787-766-5868
				Tampa, FL						813-228-2026




74
                                                   OIG Telephone Directory



Region 5			            Chicago, IL						312-353-4196
				Cleveland, OH						216-357-7800
				Columbus, OH						614-469-6677
				Detroit, MI						313-226-6280
				Grand Rapids, MI						616-916-3715
				Indianapolis, IN						317-226-5427
				Minneapolis-St. Paul, MN					612-370-3130


Region 6			            Fort Worth, TX						817-978-5440
				Baton Rouge, LA						225-448-3941
				Houston, TX						713-718-3221
				Little Rock, AR						501-324-5931
				New Orleans, LA						504-671-3700
				Oklahoma City, OK					405-609-8603
				San Antonio, TX						210-475-6819


RegioN 7/8/10		 Denver, CO						303-672-5350
				Billings, MT						406-247-4080
				Kansas City, KS						913-551-5866
				Salt Lake City, UT						801-524-6090
				St. Louis, MO						314-539-6559

Region 9		       	     Los Angeles, CA						213-894-0219
				Las Vegas, NV						702-413-0531
				Phoenix, AZ						602-379-7252
				Sacramento, CA						916-930-5691
				San Francisco, CA					415-489-6683

Joint Civil Fraud Division
AUDIT 				Kansas City, KS						913-551-5429

Investigation		Kansas City, KS	 					913-551-5866



						




                                                                       75
semiannual report to congress




Acronyms List


     ARRA................................................................American Recovery and Reinvestment Act of 2009
     CDBG...............................................................Community Development Block Grant
     CDBG-DR........................................................Community Development Block Grant-Disaster Recovery
     CFR...................................................................Code of Federal Regulations
     CPD..................................................................Office of Community Planning and Development
     DOJ..................................................................U.S. Department of Justice
     FBI....................................................................Federal Bureau of Investigation
     FEMP................................................................Federal Emergency Management Program
     FFMIA...............................................................Federal Financial Management Improvement Act of 1996
     FHA..................................................................Federal Housing Administration
     FIFO.................................................................first-in, first-out
     FIRMS..............................................................Facilities Integrated Resources Management System
     FY.....................................................................fiscal year
     GAO.................................................................U.S. Government Accountability Office
     HECM...............................................................home equity conversion mortgage
     HIAMS..............................................................HUD Integrated Acquisition Management System
     H4H..................................................................HOPE for Homeowners
     HOME..............................................................HOME Investment Partnerships Program
     HOPWA...........................................................Housing Opportunities for Persons with AIDS
     HPS..................................................................HUD Procurement System
     HUD.................................................................U.S. Department of Housing and Urban Development
     HUDCAPS........................................................HUD’s Centralized Accounting Program System
     ICFS..................................................................Integrated Core Financial System
     IDIS..................................................................Integrated Disbursement and Information System
     IPERA...............................................................Improper Payments Elimination and Recovery Act of 2010
     IPv6..................................................................Internet Protocol Version 6
     IRS....................................................................Internal Revenue Service
     LTV...................................................................loan to value
     MMIF................................................................Mutual Mortgage Insurance Fund
     NCDF...............................................................National Center for Disaster Fraud
     NSP..................................................................Neighborhood Stabilization Program
     OCFO...............................................................Office of the Chief Financial Officer
     OI......................................................................Office of Investigation
     OIG...................................................................Office of Inspector General
     OMB.................................................................Office of Management and Budget
     PHA..................................................................public housing agency
     PIH...................................................................Office of Public and Indian Housing
     REO..................................................................real estate-owned
     SIGTARP..........................................................Office of the Special Inspector General for the Troubled Asset Relief Program
     SPS...................................................................Small Purchase System
     U.S.C................................................................United States Code




76
                                                                                                              ACRONYMS LIST




Reporting Requirements
The specific reporting requirements as prescribed by the Inspector General Act of 1978, as amended by the Inspector
General Act of 1988, are listed below.



Source-Requirement	Pages


Section 4(a)(2)-review of existing and proposed legislation and regulations.	                                            36

Section 5(a)(1)-description of significant problems, abuses, and deficiencies
relating to the administration of programs and operations of the Department.	                                         8 - 35

Section 5(a)(2)-description of recommendations for corrective action with
respect to significant problems, abuses, and deficiencies.	                                                              38

Section 5(a)(3)-identification of each significant recommendation described in
previous Semiannual Report on which corrective action has not been completed.	                         Appendix 3, table B

Section 5(a)(4)-summary of matters referred to prosecutive authorities and the
prosecutions and convictions that have resulted.	                                                                     8 - 35

Section 5(a)(5)-summary of reports made on instances where information or
assistance was unreasonably refused or not provided, as required by Section 6(b)(2)
of the Act.	                                                                                                 No instances

Section 5(a)(6)-listing of each audit report completed during the reporting period,
and for each report, where applicable, the total dollar value of questioned and
unsupported costs and the dollar value of recommendations that funds be put to
better use.	                                                                                                  Appendix 2

Section 5(a)(7)-summary of each particularly significant report.	                                                     8 - 35

Section 5(a)(8)-statistical tables showing the total number of audit reports and
the total dollar value of questioned and unsupported costs.	                                           Appendix 3, table C

Section 5(a)(9)-statistical tables showing the total number of audit reports and the
dollar value of recommendations that funds be put to better use by management.	                        Appendix 3, table D

Section 5(a)(10)-summary of each audit report issued before the commencement
of the reporting period for which no management decision had been made by the
end of the period.	                                                                                    Appendix 3, table A

Section 5(a)(11)-a description and explanation of the reasons for any significant
revised management decisions made during the reporting period.	                                                          40

Section 5(a)(12)-information concerning any significant management decision
with which the Inspector General is in disagreement.	                                                                    44

Section 5(a)(13)-the information described under section 05(b) of the Federal
Financial Management Improvement Act of 1996.	                                                                           45




                                                                                                                         77
     FRAUD ALERT
     Every day, loan modification and foreclosure rescue scams rob vulnerable homeowners of their money and their
     homes. The U.S. Department of Housing and Urban Development (HUD), Office of Inspector General, is the
     Department’s law enforcement arm and is responsible for investigating complaints and allegations of mortgage
     fraud. Following are some of the more common scams:



     Common Loan Modification Scams

     Phony counseling scams: The scam artist says that he or she can negotiate a deal with the lender to modify
     the mortgage — for an upfront fee.


     Phony foreclosure rescue scams: Some scammers advise homeowners to make their mortgage payments
     directly to the scammer while he or she negotiates with the lender. Once the homeowner has made a few
     mortgage payments, the scammer disappears with the homeowner’s money.


     Fake “government” modification programs: Some scammers claim to be affiliated with or approved by the
     government. The scammer’s company name and Web site may appear to be a real government agency, but the
     Web site address will end with .com or .net instead of .gov.


     Forensic loan audit: Because advance fees for loan counseling services are prohibited, scammers may sell
     their services as “forensic mortgage audits.” The scammer will say that the audit report can be used to avoid
     foreclosure, force a mortgage modification, or even cancel a loan. The fraudster typically will request an
     upfront fee for this service.


     Mass joinder lawsuit: The scam artist, usually a lawyer, law firm, or marketing partner, will promise that he
     or she can force lenders to modify loans. The scammers will try to “sell” participation in a lawsuit against the
     mortgage lender, claiming that the homeowner cannot participate in the lawsuit until he or she pays some
     type of upfront fee.


     Rent-to-own or leaseback scheme: The homeowner surrenders the title or deed as part of a deal that will let
     the homeowner stay in the home as a renter and then buy it back in a few years. However, the scammer has
     no intention of selling the home back to the homeowner and, instead, takes the monthly “rent” payments and
     allows the home to go into foreclosure.


     Remember, only work with a HUD-approved housing counselor to understand your options for assistance.
     HUD-approved housing counseling agencies are available to provide information and assistance. Call 888-
     995-HOPE to speak with an expert about your situation. HUD-approved counseling is free of charge.


     If you suspect fraud, call the U.S. Department of Housing and Urban Development, Office of Inspector General.



     Where to report Federal Housing Administration loan fraud:
     Call toll free: 800-347-3735




78
                                                  APPENDIX THREE CHARTS




REPORT
Report fraud, waste, and mismanagement
  in HUD programs and operations by


     Calling the OIG hotline: 1-800-347-3735
      Faxing the OIG hotline: 202-708-4829
   Emailing the OIG hotline: hotline@hudoig.gov



          Sending written information to
   Department of Housing and Urban Development
           Inspector General Hotline (GFI)
                 451 7th Street, SW
              Washington, DC 20410


                      Internet:
      http://www.hudoig.gov/hotline/index.php
           All information is confidential,
          and you may remain anonymous.




                                                                   79
                              U.S. DEPARTMENT
                              OF HOUSING
                              AND URBAN
                              DEVELOPMENT



Report Number 69
www.hudoig.gov
HUD OIG Hotline: 1-800-347-3735
